<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: COMMUNITY-BASED APPROACHES FOR A BETTER ENUMERATION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
 OVERSIGHT OF THE 2000 CENSUS: COMMUNITY-BASED APPROACHES FOR A BETTER 
                              ENUMERATION

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 1999

                               __________

                           Serial No. 106-63

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
61-509 CC                    WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee


                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Thomas B. Hofeller, Staff Director
                Kelly Duquin, Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 28, 1999....................................     1
Statement of:
    Jacobson, Jean, Racine County executive......................    24
    Ladwig, Bonnie L., Wisconsin State representative; and 
      Gwendolynne S. Moore, Wisconsin State senator..............    12
    Robinson, Nathaniel E., administrator, Division of Energy and 
      Intergovernmental Relations, Office of Governor Tommy G. 
      Thompson; Allan K. Kehl, Kenosha County executive; and Dr. 
      Paul Voss, Department of Rural Sociology, University of 
      Wisconsin at Madison, WI...................................    43
    Smith, James M., mayor, city of Racine, WI; and John M. 
      Antaramian, mayor, city of Kenosha, WI.....................    28
Letters, statements, etc., submitted for the record by:
    Antaramian, John M., mayor, city of Kenosha, WI, prepared 
      statement of...............................................    34
    Kehl, Allan K., Kenosha County executive, prepared statement 
      of.........................................................    47
    Ladwig, Bonnie L., Wisconsin State representative, prepared 
      statement of...............................................    15
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, article dated December 2, 1998......    57
    Ryan, Hon. Paul, a Representative in Congress from the State 
      of Wisconsin, prepared statement of........................     8
    Smith, James M., mayor, city of Racine, WI, prepared 
      statement of...............................................    30
    Voss, Dr. Paul, Department of Rural Sociology, University of 
      Wisconsin at Madison, WI, prepared statement of............    51


 OVERSIGHT OF THE 2000 CENSUS: COMMUNITY-BASED APPROACHES FOR A BETTER 
                              ENUMERATION

                              ----------                              


                         MONDAY, JUNE 28, 1999

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                        Racine, WI.
    The subcommittee met, pursuant to notice, at 10:13 a.m., in 
the Racine City Council Chambers, 730 Washington Avenue, 
Racine, WI, Hon. Dan Miller (chairman of the subcommittee) 
presiding.
    Present: Representatives Miller, Ryan, and Maloney.
    Also present: Representative Petri.
    Staff present: Jo Powers, assistant press secretary; Kelly 
Duquin, professional staff member; and Mark Stephenson, 
minority professional staff member.
    Mr. Miller. Good morning. The Subcommittee on the Census 
will have its field hearing and we will start.
    I apologize for the delay. My plane just sat at the 
National Airport because the crew had gotten in late the night 
before and had to wait 8 hours before they could begin the 
flight. Normally when you start a flight early in the morning, 
you are safe, but I was not. Congresswoman Maloney had a 
similar problem, but she got in at 1 a.m. But we are here, and 
we appreciate your patience to allow us to begin late and if 
necessary, we will juggle the schedule.
    The process is we will have some opening statements by the 
Members of Congress here this morning and then we will go to 
our first panel.
    Let me thank everyone for having us here today and my 
fellow committee members here, and Congressman Petri joining us 
also, and the distinguished witnesses.
    I am pleased to be here in Congressman Paul Ryan's district 
this morning, and I thank him for requesting that we come here 
to Racine, and for so graciously hosting this hearing. I would 
also like to thank his staff for the invaluable assistance in 
making this hearing possible.
    We began this series of field hearings in December of last 
year with our first one in Miami and our second in Phoenix. 
Today's hearing will continue a commitment I made last 
September at a hearing in Washington to reach out to those 
undercounted in the 1990 census in their own community. If we 
want a better census in 2000, we must draw from the expertise 
and knowledge of the people in the field.
    I am gratified to be continuing the national conversation 
regarding the 2000 census, and in the process, fulfilling the 
commitment I made last September. Members of Congress do spend 
the bulk of their time in Washington--it comes with the job. 
Through the field hearing process, my colleagues and I have 
benefited greatly from rediscovering, or even discovering for 
the first time, the distinct characteristics of each region of 
the country--indeed, specific communities.
    I know when it comes time to conduct a decennial census, it 
is members of those communities that will make it happen. From 
the many field hearings held in Washington, I know the Census 
Bureau, with a great deal of input from outside groups, has 
created a new program and aspects of publicity in an effort to 
make the 2000 census the most accurate ever. These include 
local updates of census addresses, partnership programs, a paid 
advertising campaign, Census in the Schools Program and 
improved promotion outreach.
    Unfortunately, the Bureau decided against a post-census 
local review program, which proved very valuable in 1990. I am 
interested in hearing how many local officials feel about 
inclusion or exclusion of these and other programs and how they 
might be proceeding. They will, of course, only be as effective 
as each community wants them to be.
    Some communities may even have their own twist on a 
specific Bureau program to make it more effective for their 
particular area. And that is why we are here today, to find out 
how Racine, Kenosha and the entire State of Wisconsin are 
working toward the most accurate 2000 count possible, with and 
without ideas from Washington, DC.
    Let me also state for the record, this is not a hearing to 
debate the use of sampling in the 2000 census. The Supreme 
Court ruled in January of this year that a full enumeration 
must be conducted. Regardless of one's views on the subject, we 
must all agree any census will only be as good as its base 
count. As April 1, 2000 draws ever close, we must focus our 
efforts on achieving the best count possible and stop wasting 
our time and energy fighting a fight that has been settled by 
the Supreme Court and six Federal judges.
    The face of our country and communities change every day. 
We must work hard, harder than ever before, to keep pace with 
that change. The census is the very core of our democracy. It 
cannot be the result of anything less than our absolute best 
effort.
    I am certain that every witness we will hear from today has 
the same goal: the best count possible for Wisconsin and our 
Nation. As leaders in your communities, you are well aware of 
how much your constituents are affected by your efforts. While 
the census may seem mundane to some, you understand and 
appreciate its significance and importance on the Federal and 
local levels. It cannot be done without your help and I look 
forward to hearing your ideas and input, and I thank you for 
your commitment to this very important issue.
    At this time, I would like to call on the ranking member, 
Congresswoman Maloney from New York.
    Mrs. Maloney. Thank you, Mr. Chairman, and thank you, Paul 
Ryan, for hosting us. And again, I thank you and your staff for 
your efforts to make our visit here pleasant.
    This is an important hearing. I must say, we have been all 
around the country. As the chairman said, we have been in 
Arizona, we have been in California for a different hearing and 
down in Florida. But when I arrived here in Racine, I felt like 
I was in upstate New York. In Florida, you know you are in a 
different part of the country, but a lot of it looks very 
similar to my own State.
    I think it is really important for the subcommittee to go 
out and hear from local communities and to visit the places 
where the rubber hits the road, to hear from the people that 
are directly affected by the census.
    I only hope that in the near future we can visit a few more 
cities in our oversight capacity. For example, my hometown, the 
city of New York, was terribly undercounted in the 1990 census, 
as was Congressman Davis' great city of Chicago, also a member 
of the committee. I know that Representative Davis and I would 
welcome the subcommittee to our States at any time.
    Today, we are going to be hearing from a number of 
distinguished government representatives and academics. As we 
have heard in our other field hearings, the State of Wisconsin 
and the American Indian tribes in this area also have a strong 
interest in an accurate census 2000. As many of you know, the 
State of Wisconsin made extraordinary efforts in 1990--and I 
see my colleague, Mr. Petri, who probably led many of those 
efforts--to ensure that all of its residents were counted. And 
they should be commended for these efforts. Wisconsin was a 
model for the Nation in 1990, and I hope the same will be true 
in 2000.
    Outreach and promotion efforts included gathering advice 
from local officials, building trust in communities, creating 
census day events and spending significant resources. Elected 
and appointed local government officials, community and 
neighborhood organizations and the Census Bureau worked in a 
coordinated effort to count Wisconsin residents. These efforts 
paid off. The mail back response rate for Wisconsin was 77 
percent, 13 points above the national average. Dr. Barbara 
Bryant, the Director of the 1990 census, presented this State 
with an award for having the highest mail back rate in the 
country.
    In 1990, the undercounts for Wisconsin and Racine County 
were 0.6 percent and 0.7 percent respectively--among the lowest 
in the Nation. Yet, despite these extraordinary efforts, the 
1990 census undercounted Milwaukee by 2.3 percent. Over one-
half of Wisconsin's undercounted community was located in 
Milwaukee. Almost 5 percent of Milwaukee's African-Americans, 
10,000 people, were missed in 1990; 3.5 percent of Racine's 
African-Americans were missed. By contrast, only 0.8 percent of 
the whites in Milwaukee and 0.3 percent of the whites in Racine 
were missed.
    It is these different rates of undercount which are most 
troubling. The 1990 census was the most examined census in the 
history of this country. The total error rate for the 1990 
census was over 10 percent--26 million people were miscounted. 
There were 8.4 million people missed, 4.4 million people were 
counted twice and 13 million people were counted in the wrong 
place. To make matters worse, the people missed and the people 
counted twice are quite different. The people missed in the 
census are minorities and children, American Indians, Hispanics 
and Asians as well as the urban and rural poor. The people 
counted twice in the census tended to be affluent suburbanites, 
those who might be fortunate enough to have two homes.
    Today, we review how local communities are working for an 
accurate count and there are a number of components to a 
successful census, which require active involvement by local 
communities. Without these efforts, the undercount for 2000 
could exceed that of 1990. However, as we listen to these 
ideas, we must keep in mind that promotion and outreach alone 
will not solve the problem of an undercount, which is much 
larger in poor and minority communities than in the rest of the 
world--or the rest of the country.
    Let me mention a few ways in which local communities can 
help. First, there must be an accurate address list--the Bureau 
cannot meet that goal without the help of local governments. 
The Bureau needs local governments to evaluate its list of 
addresses for the communities. If the Census Bureau and local 
communities can agree on the addresses to be counted, most of 
the controversy we saw during local review following the 1990 
census can be avoided.
    Second, there must be a large advertising and promotion 
program. The Bureau cannot do that without advice from 
community leaders on the kinds of messages that will convince 
people to participate. The Bureau also can use advice on the 
best vehicle for these messages. Tailoring the advertising 
campaign to local communities cannot be done without community 
involvement.
    Third, the Census Bureau must recruit and hire hundreds of 
thousands of temporary workers. It is important that wherever 
possible, these workers come from the community being counted. 
The Census Bureau cannot do that without referrals from 
individuals in all economic sectors who can identify potential 
applicants.
    Fourth, there must be language assistance guides and 
questionnaire assistance centers to help people, particularly 
those with limited English skills. The Census Bureau cannot do 
that without help from community leaders in identifying the 
best locations for assistance centers and volunteers to help 
staff those activities.
    Mr. Chairman, I have listed only four ways in which the 
local communities can help the Census Bureau achieve a more 
accurate count, but of course there are many more ways, and I 
know that we will hear some very good ideas today.
    However, what we have learned from past census' is that 
these efforts cost money. The majority in Congress won their 
case in court and based on the statute, the Supreme Court ruled 
that enumeration must be used for apportionment reasons, which 
is the allocation between seats between the States. So in a 
sense, Wisconsin won in that effort. Yet the court said that 
the use of a modern scientific count could be used for the 
purposes of distribution of Federal funds and the count for 
redistricting. And for the distribution of Federal funds, this 
would, of course, help the State, and particularly the city of 
Milwaukee, which was undercounted quite dramatically.
    As a result of the Supreme Court case, the census is going 
to cost an extra $1.7 billion. Yet I know that even after 
spending an extra $1.7 billion, and even after increased 
efforts are made to boost local participation, there will be a 
large undercount in Milwaukee and similar places, just like in 
1990. If modern scientific methods are not used, the Census 
Bureau estimates that the net undercount for 2000 will increase 
by almost 25 percent nationwide. This means that if it is not 
corrected, then these localities will lose millions in Federal 
assistance. If the same holds true for Milwaukee, 1 out of 
every 16 African-Americans will be missed. The Census Bureau 
needs everyone's help to complete what is an unbelievably 
difficult task.
    I look forward to today's testimony and I hope we can 
provide the Census Bureau with some very useful ideas of how 
localities can work with the Census Bureau for a better count.
    Again, I thank my distinguished chairman and all the 
distinguished members of the panel for being here today and for 
their assistance and for their hard work.
    Thank you.
    Mr. Miller. Thank you. We indeed have a great challenge to 
conduct this 2000 census, but we can learn a lot from the past. 
And in the 1990 census, as Congresswoman Maloney said, 
Wisconsin had the highest mail response rate, and we learn a 
great deal from that.
    My predecessor in charge of the census issue is the current 
Speaker of the House Denny Hastert. He had a hearing a few 
years ago, and I think Mr. Petri may have attended and 
participated, where they investigated why and how they were so 
successful. But this year, we are fortunate to have on our 
subcommittee, Paul Ryan, a new Member of Congress, but one who 
has a very special interest because of the interest that the 
entire State of Wisconsin has demonstrated in the census. So we 
are delighted that he helped bring this hearing to Racine and 
to Wisconsin, and we are now ready for your opening statement.
    Mr. Ryan. Thank you, Mr. Chairman.
    First, I just would like to welcome everybody and thank you 
very much for coming. I really appreciate the fact that Mrs. 
Maloney, you were able to come here from New York and I really 
appreciate the chairman coming here to handle this hearing.
    We have done a good job in Wisconsin in participating in 
the census. We can do a better job, but I think there is a lot 
we can learn from local officials here in Wisconsin on how we 
can do a better job of participating in the census.
    I see the census as a cooperative effort, a bipartisan 
cooperative effort between local, State and Federal officials 
to make sure we get the best possible number, because no one 
can disagree with the fact that we need an accurate count and 
accurate census.
    I will be brief with my remarks because we got kind of a 
late start, but my highest priority is an accurate census. The 
importance of a census to our system of government cannot be 
stressed enough. It was specifically provided for in our 
Constitution. The founders of our country clearly felt that it 
was vital to ensure fair representation for the citizens of 
this country. The census right here in Wisconsin is especially 
important. Getting an accurate count may mean a difference of 
as much as $24 million per year in Wisconsin. That is $240 
million over the next decade in Federal funding for the people 
of Wisconsin, at a minimum, according to the General Accounting 
Office.
    The census numbers are the numbers local communities will 
use to plan for economic development, land use and school 
districts, among many other things. These numbers will be used 
for the next decade to determine available funds and allocation 
of resources. Because of this, we must focus our attention on 
ways to achieve the best count possible for the citizens of our 
State.
    Sampling is not an option, according to the Supreme Court. 
Our Constitution states that ``an actual enumeration must be 
performed.'' The communities of Wisconsin must work together to 
develop methods that will help us achieve the best enumeration.
    Programs focused on outreach and local government review, 
in my opinion, will give us the accuracy we are looking for. 
Local governments know how important an accurate census is to 
the representation--just ask anybody. The local governments do 
not need an incentive program to increase their desire to have 
everyone counted, they just need the tools to make sure that it 
actually happens. The Census Bureau can do that by working with 
them to focus on areas that are typically undercounted, to 
develop partnerships and suggest methods of outreach.
    We must do everything possible to ensure that this year's 
census plan is on the right track. Among other things, the 
Local Census Quality Check Act of 1999, which passed the House 
of Representatives earlier this year, is a program that would 
allow local officials to check numbers after the census. It is 
a program that has been suggested as a way to lay the 
foundation for a successful census through actual enumeration.
    The local updating of census addresses program is another 
one that the Census Bureau is actually engaging in currently. 
The LUCA program has been in use in cities across the country 
to provide a check prior to the census.
    These are voluntary programs, and one of the purposes of 
having this hearing is to raise awareness to the voluntary 
nature of participating in the census. It is our intent to have 
this hearing right here in Racine, in southern Wisconsin, to 
raise awareness of all of our efforts as local officials, to 
make sure that we participate to the fullest extent possible in 
the actual enumeration in this year's census. It means quite a 
bit to our communities. These voluntary programs allow the 
input of local government as a check on the data obtained by 
the Census Bureau. Local government officials, in my opinion, 
know their jurisdiction a lot better than officials in 
Washington do. They are in the best position to point out flaws 
in district maps or neighborhoods that are being undercounted. 
They will help to ensure that all people in their areas are 
counted.
    Other programs, such as outreach in the schools, churches, 
and business communities, or the recruitment of census workers 
from the community may also be helpful in ensuring accurate 
counts in our communities.
    I am anxious to hear from the witnesses here today. We have 
also been doing some outreach with local government officials 
in southern Wisconsin. About 3 months ago, I sent out a mailing 
to all elected officials in southern Wisconsin in the First 
Congressional District, asking for their input as to whether or 
not they think input in the census would be valuable, would 
they participate, do they think it would be helpful. And I just 
want to briefly mention a couple of those quotes after this 
mailing.
    Mayor Jim Smith, who is going to be with us here 
testifying, early on in response to some of the local efforts 
that we are trying to get involved with the Census Bureau, said 
this: ``We have had a very positive experience working with the 
Census Bureau on local update of census addresses for the year 
2000 census. We would anticipate it would be very beneficial to 
both the Census Bureau and the city of Racine to have an 
opportunity to review maps and addresses after the count has 
been completed.''
    Sheila Seigler, the town clerk of Wheatland, said, ``I 
believe the very best attempt should be made to get an accurate 
count and local review would aid that process.''
    In Evansville, Jennifer Petruzello, who is the city 
administrator over there, we talked about this after our town 
hall meeting, said ``The city would appreciate the opportunity 
to review survey data and will work with the Census Bureau to 
ensure an accurate count of the citizens in our county.''
    Throughout southern Wisconsin, local community leaders and 
elected officials are eager and ready to get working on having 
an accurate census. What we would like to hear from today is 
your input, how can we best achieve this, what do you think of 
local efforts? And hopefully we can share ideas on how we can 
get the best enumeration through for the 2000 census.
    I would like to once again thank the members of the 
committee for traveling here to Racine to have this hearing. I 
think that we have a lot to offer in this dialog right here 
from southern Wisconsin and I would like to thank all of the 
witnesses for coming to participate in this today and I look 
forward to everyone's testimony.
    Thank you, Mr. Chairman.
    Mr. Miller. Thank you, Paul. Congressman Petri, did you 
want to make an opening statement? Congressman Petri is not 
officially a member of our committee, but obviously he is a 
very important Member of Congress. During the 1990 census, he 
was very actively involved in Congress on the particular 
subcommittee that ran the issue of the census oversight.
    [The prepared statement of Hon. Paul Ryan follows:]

    [GRAPHIC] [TIFF OMITTED]61509.001
    
    [GRAPHIC] [TIFF OMITTED]61509.002
    
    [GRAPHIC] [TIFF OMITTED]61509.003
    
    [GRAPHIC] [TIFF OMITTED]61509.004
    
    Mr. Petri. I just wanted to join Congressman Ryan in 
thanking you, Mr. Chairman, and your senior Democratic member, 
Representative Maloney--you representing the Sarasota area of 
Florida and she Manhattan out in the New York City area--for 
coming all the way out here to Wisconsin to listen and to 
receive the input of officials in southeast Wisconsin about how 
to improve the census.
    I really want to commend Paul Ryan for his leadership and 
initiative in organizing this hearing here today. I think it is 
a testimony to the respect and effectiveness that he has 
displayed that this hearing is being held here in Racine today. 
And I think we probably should be thanking Mayor Smith for 
making this beautiful facility available for us and also all of 
the witnesses for the effort that went into their testimony.
    Thank you.
    Mr. Miller. Thank you.
    We will go ahead and proceed. Our first two witnesses will 
be the Honorable Bonnie Ladwig and the Honorable Gwendolynne 
Moore. If they would come up.
    We had our first hearing in Miami last December with 
Congresswoman Carrie Meek, and we focused on inner-city issues 
and the large immigrant population that Miami has, both Haitian 
and Hispanic. Then, when we were in Phoenix, it was really 
focused on the American Indians. We had members of tribal 
leaders who testified on that focus there.
    So we really do learn a lot from these. This is to see what 
real America is like. Now a lot of the people here are going 
down to my district in Sarasota, FL for the winter and we 
appreciate that. So we have a little connection here. 
Congressman Petri's in-laws vacation in my area in the winter 
time.
    But this is a Federal hearing of the Government Reform 
Committee. It is a requirement of our committee that we swear 
in our witnesses. So if you would both stand and raise your 
right hands and repeat after me.
    [Witnesses sworn.]
    Mr. Miller. Please be seated and let the record reflect 
that the witnesses answered in the affirmative. Now we will 
have opening statements. Ms. Ladwig, would you like to begin?

STATEMENTS OF BONNIE L. LADWIG, WISCONSIN STATE REPRESENTATIVE; 
       AND GWENDOLYNNE S. MOORE, WISCONSIN STATE SENATOR

    Ms. Ladwig. Thank you, Chairman Miller and the members of 
this Subcommittee on the Census. Thank you for inviting me to 
testify in front of you today and thank you for coming to 
Racine.
    I am State Representative Bonnie Ladwig. I represent parts 
of the Racine area. I have been in the State assembly for 7 
years. Before that, I served on the Racine County Board for 12 
years. I bring kind of a different perspective because I have 
served as a census crew leader in 1970, as well as a quality 
inspector for the 1980 census. So, I feel I am quite well 
versed on the whole census process.
    I do not think I need to tell anyone here how crucial the 
census is going to be for Wisconsin. With both Federal money 
and a congressional seat at stake, we have got to make sure 
that every person is reached with this count. And depending on 
how accurate the census is, Wisconsin could lose $240 million 
in the next decade.
    I know there are numerous plans already underway to raise 
awareness about the upcoming census, but I wanted to bring up a 
way that I believe would be very effective. People fear what 
they do not know. We live in an age where the protection of 
privacy is key to most people. They are very leery about giving 
out any information about themselves and their families for 
fear of fraud or even identity theft. They need to know that 
this is not the case, that is not what the census is used for. 
We have to educate the people about what it is, what the census 
is and how the information is to be used. They need to know 
that this is not for some mailing list that is going to be sold 
or for the FBI to keep tabs on them. They have to know what is 
really on the line. And I believe that if the people in Racine 
knew that millions of dollars in Federal aid and congressional 
seats were up for grabs, they would be much more likely to 
participate in the census. The message needs to reach them that 
this is not a bad thing.
    One of the concerns, I know when I had worked on the 
census, was a long form versus a short form. We did find people 
who get the short form are very willing to fill it out; there 
are not a lot of invasive questions. When you get to the long 
form, it takes quite a long time to fill it out to begin with, 
and a lot of the questions are very personal. I know we 
frequently had to call people when we did not get a form from a 
certain address, and if that did not work, we had to go out to 
their homes. You did not go out just once, twice, or three 
times. You made sure that you got every form that you could 
get, that was humanly possible. So, I think it is very 
important to educate the people about how many people get the 
long form and exactly what that long form is used for.
    Another thing that I would like to mention is the important 
role our children play in educating parents. I am beyond the 
small children age, but I do have grandchildren. And whether we 
realize it or not, our children are a wealth of knowledge. Most 
of our children are in the school system we currently have, and 
I believe this is a perfect opportunity to reach a majority of 
families. If we educate the children, they will take home what 
they learn, and in turn, educate the parents. By getting the 
children involved, you can really make this a family affair 
while preparing the children for the future, when they will be 
the ones filling out the forms. We will be teaching them early 
to be responsible citizens. I know on election day, if the 
polling places are held in schools, frequently the classrooms 
will come in. We will let them use sample ballots as if they 
are voting. They, in turn, then go home and tell their parents 
about it. The same thing could be done with the census, using 
sample census forms in the classroom. Just have a census within 
the classroom and see then what the children will take home to 
their parents.
    I truly believe that education will be the key to getting 
an accurate count. If people know what they are filling out and 
why, I think we will greatly increase participation. When you 
get children and the community involved, the number will go up.
    Local elected officials are also very important. They are 
dealing with their constituents on a daily basis. Most 
communities have enhanced 911 systems, which do have a record 
of all the homes, so that you should not be missing the homes. 
You might miss somebody in the home, but at least you should be 
able to have an accurate account of every home, as well as 
school censuses that are done locally.
    I thank you for giving me the chance to testify in front of 
you today and I welcome any questions you might have. Thank 
you.
    Mr. Miller. Thank you very much, Ms. Ladwig.
    Senator Moore, would you like to make your statement?
    [The prepared statement of Ms. Ladwig follows:]

    [GRAPHIC] [TIFF OMITTED]61509.005
    
    Ms. Moore. Thank you so much, Honorable Dan Miller of 
Florida and Honorable Carolyn Maloney from New York. I 
certainly would like to join our own First District Congressman 
Paul Ryan in welcoming you here to Racine, and I am also happy 
to see Honorable Congressman Tom Petri here as well.
    I was born in Racine, so Representative Maloney, I can 
assure you this is not upstate New York, but this is the center 
of the known universe. [Laughter.]
    I am really privileged to be a member of the Wisconsin 
State Senate. I am one of two African-Americans who serve in 
that 33-member body, and I am the first African-American woman 
to ever have served in the Senate in the State's 150-year 
history. I occupy a Senate seat that was created during the 
1990 redistricting plan. The map was drawn by a Federal court. 
And so I have a real particular interest in apportionment and 
redistricting as it relates to representation of minority 
people.
    As well as being concerned about this as a local issue, I 
am a member of the Black Leadership Forum. The Black Leadership 
Forum is a consortium of national organizations that represent 
the African-American interests, including, for example, the 
National Association for the Advancement of Colored People, the 
National Urban League, the Congressional Black Caucus, the 
National Black Caucus of State Legislators, Council of Negro 
Women and so on and so forth. This consortium is chaired by 
Reverend Joseph Lowery of Atlanta, GA and the executive 
director is Dr. Yvonne Scruggs, who was formerly, I believe, 
the deputy mayor of Philadelphia.
    In addition, I am honored this year to have been elected as 
the Chair of the Wisconsin Legislative Black and Hispanic 
Caucus. Our caucus joins those national organizations in 
advocating for increased electoral representation and 
additional resources for traditionally undercounted and 
underrepresented minorities.
    Our caucus has a powerful interest in both accuracy, the 
best enumeration possible, as well as the use of statistical 
sampling. We do recognize, as Wisconsinites, the irony of 
wanting an accurate count, if in fact that means that other 
congressional districts that may be more populous would pick up 
a seat and perhaps we would lose one. However, if these worst 
fears are realized, we are particularly concerned, because we 
believe that the minorities in this State will endure and bear 
the most disparate impact.
    I think it was Representative Maloney that mentioned 
earlier in her comments that half of the people who were 
missed--albeit we did a fantastic job of enumerating our people 
in 1990--half of those people who were missed were from the 
city of Milwaukee, the city which I represent, 30 miles north 
of Racine here. The second locus point in the universe.
    But in all seriousness, Milwaukee is a very diverse 
community. Racine here has the second largest concentration of 
African-Americans. There are a great number of Mexican-
Americans who live here in Racine as well, and we are concerned 
that the redistricting process be fair so that we can at least 
retain the representation that we have and not endure a loss of 
State representatives; if in fact our worst fears are realized, 
that we will not lose a congressional district here in 
southeastern Wisconsin.
    There is one African-American State representative that 
represents the city of Racine here, and all of the other State 
legislators, State representatives, represent districts in 
Milwaukee.
    Does that red light mean anything?
    Mr. Miller. That means about 5 minutes, but go ahead.
    Ms. Moore. So I am going to try to wind up. We are not 
debating the U.S. Supreme Court decision. Again, our caucus has 
an interest in the most accurate enumeration and the use of 
statistical sampling. We are concerned that 77 percent of those 
in Wisconsin who are undercounted are children, and we need 
this information for accurate and critical planning for 
education, health care, transportation and housing.
    And I guess the bottom line is that I would like to 
associate myself with all of the wonderful strategies that 
Representative Ladwig has laid out, and the bottom line is that 
we need money for that. I think that any of the strategies that 
would be employed ultimately will require face-to-face contact 
with our constituents. There is no replacement for that. And 
that will cost money. I think we ought to hire minorities in 
Wisconsin and other places around the country to make those 
door-to-door contacts, to guarantee the best enumeration 
possible.
    Thank you for your indulgence today. I would be happy also 
to answer any questions.
    Mr. Miller. Thank you. We will proceed to a question 
period. We use the light for our 5 minute program. This is what 
we do in Congress, it is how you keep on schedule the best you 
can, with our little light system.
    The focus of this is to try to get a better understanding 
of what we can do to get the best count possible and see right 
at the local level how we do that.
    Representative Ladwig, I will just respond to a couple 
comments you made. The long form is a concern. One out of every 
six gets the long form. The short form is down to six or seven 
questions now and that is what obviously the majority of the 
people will receive. The long form is very detailed and asks a 
lot of personal information. This may be the last time that we 
will do the long form. It will be conducted next year but they 
are experimenting with something called the American Community 
Survey and something that would be done annually, each year for 
10 years, and in effect, accomplish the same information. But 
we are going to have it this coming year.
    One program that I am very excited about that the Census 
Bureau has is the Census in the Schools Program. It is going to 
be run by Scholastic, Inc., it is contracted out, where they 
will contact elementary school teachers, and they have a packet 
of information. I went to the initial presentation on it with 
Secretary Daley, the Secretary of the Commerce Department, and 
Dr. Prewitt, the Director of the Census Bureau, unveiling the 
plan. It is right now only going to be presented to 40 percent 
of the school teachers in this country and then the principals 
receive it for the rest. I think it should be expanded to 100 
percent of the teachers, and so we are going to push to include 
that funding.
    Senator Moore, you mentioned the funding. This is a very 
expensive process, we are going to spend over $4 billion this 
next fiscal year. And this current fiscal year, we are spending 
over $1 billion preparing for the census. And Congress has not 
been afraid to spend the money. We know this is a 
Constitutional responsibility. I know we have a lot of other 
needs for money, but this is one that the Constitution Article 
I very specifically states for us.
    Our concern is how do we reduce the undercount, especially 
in the minority communities. That is the reason we were in 
Phoenix and the reason we were in Miami and that is what we are 
looking for here.
    A couple of questions. Why do you think minorities do not 
participate in the census? They do not respond to the same rate 
of mail. What are your opinions about why that would be the 
case, and what can we do specifically? How do we reach 
minorities, say, in your Senate District? Are they afraid to 
respond? I mean, you know, there are some people, very 
conservative people on the far right, that are afraid of the 
government and do not want to give any information. What could 
you share on that?
    Ms. Moore. Thank you, Mr. Chairman, for the question.
    I did not spend a lot of time in my testimony enumerating 
various specific strategies because I really meant it when I 
said I thought the bottom line was door-to-door, face-to-face 
contact. I do think that some of the things that Representative 
Ladwig mentioned were very important, particularly as it 
relates to people concerned about illegal alien status, 
language barriers, cultural barriers, the belief that the 
census will be used for purposes other than enumeration, would 
be cross-referenced with other kinds of public assistance 
records or warrants for arrests that may be outstanding. And it 
is only the reassurance of people who live in the neighborhood, 
people perhaps who they have seen or run into in the grocery 
store, people who speak their language, that have even a 
possibility of breaking through those barriers.
    Another thing is, I think people are barely literate, and 
so I think when they do receive information in the mail, they 
are less likely to respond. And there is a lot of trouble 
responding to mail. You have got to get a stamp; you have got 
to take it back to the mailbox. And if you are like Gwen Moore 
here, you do not get a chance to respond to your mail as often 
as you do to an interview that might present itself right there 
at that time.
    I do think that the face-to-face contact is the only way to 
break through some of the barriers and to use local people who 
can relate to the residents therein. That is absolutely the 
best possible solution. I do not know if it is appropriate to 
offer people incentives or bonuses for the correct enumeration, 
but if that were possible, that would be something that I would 
certainly suggest.
    Mr. Miller. Ms. Ladwig, would you like to elaborate on 
that?
    Ms. Ladwig. Well, I think what Senator Moore said, it is 
the door-to-door contact, especially again with the long form, 
where you have to go out and explain to the people what it is 
being used for; no, it will not be used for W-2, it will not be 
used for the Sheriff's Department warrants or even for child 
support payments. And using people from the neighborhood, I do 
not know if it necessarily would work real well, because do you 
want your next door neighbor to know all the personal 
information. But if you could use somebody of the same 
nationality or race, I think that would be very important.
    Mr. Miller. Thank you. Mrs. Maloney.
    Mrs. Maloney. Following up on the chairman's question. Both 
of you in your testimony said that many people in the hardest 
to enumerate populations have a general mistrust of the Federal 
Government. You mentioned that. Particularly Senator Moore, as 
the Chair of the Black and Hispanic Caucus, what are you doing 
already to help with the census? What could we do to alleviate 
these fears and concerns? And is there something other than 
explaining the confidentiality that you just went through, Ms. 
Ladwig, that it is only confidential information with the 
Census Bureau, is there something more that the Bureau could be 
doing besides explaining confidentiality and hiring members 
from communities as you mentioned? Can you think of anything 
else we could do to break through?
    Ms. Moore. One of the things that I have thought of is a 
secondary way. The Census Bureau could use local programming, 
commercials, and radio programming--particularly effective with 
some of the smaller communities--to provide a very culturally 
specific message, to actually have actors say that these files 
will not be cross matched with other sorts of files, like I 
think she mentioned the child support files. It is a very 
delicate issue, because I love the idea of collecting child 
support, it is one of my favorite ideas. But I know it is very 
intimidating.
    I think it is important to use local talent, cultural 
messages and to have the advertisement address those very 
sensitive issues.
    Mrs. Maloney. Do you think radio ads are more effective 
than newspaper ads?
    Ms. Moore. Oh, absolutely. In the minority community, 
absolutely. I hope there is no print media here. Print media is 
out for sure. Radio is the way to go, for sure, in local, 
smaller areas.
    Mrs. Maloney. It is my understanding that Governor Thompson 
asked for $750,000 for census outreach and that the legislature 
did not meet this request. Can you explain why, when you said 
you think it would be very helpful?
    Ms. Ladwig. I think----
    Ms. Moore. We did.
    Ms. Ladwig. You did do that. I think the 750 that you are 
referring to is the money the assembly took out for public 
campaign finance.
    Mrs. Maloney. Oh, really? Did he get extra money for census 
outreach?
    Ms. Moore. I do not want to misspeak. The budget has not 
passed yet. We are planning on debating it tomorrow perhaps, 
but I do believe that the Senate version of the budget has 
moneys included for census data. You know, I do not want to 
bash our Governor here and there. Is a representative from the 
Governor's Office here who perhaps can better answer that 
question? But the Governor's proposal, his budget that he 
provides to us, would need to have included that amount of 
money. I am a member of the Joint Committee on Finance and we 
took no action to delete any funds that were provided by the 
Governor. So we should probably defer.
    Ms. Ladwig. I would also like to just mention, I think ways 
that it could be addressed is local cable TV lets your local 
legislators put on 20 second public service comments. I think 
that would be something that all legislators across Wisconsin 
could do. We all write news columns for your weekly newspapers. 
We could address it in those columns. We send out newsletters 
where it could be addressed, as well as letters to the editor.
    Mrs. Maloney. Ms. Moore, do you believe that the 
differential undercount, which as you know is primarily 
children and minorities in both rural and urban areas, can be 
eliminated with the use of modern scientific methods on top of 
enumeration?
    Ms. Moore. Oh, I am absolutely relying on the scientific 
sampling principles to bridge that gap. I do not think that 
with our best efforts--and Milwaukee had a major effort done by 
people who are very reliable, very responsible and this 
undercount was still there. I do believe that the application 
of scientific principles does provide the opportunity for the 
minority community to, in particular, get the financial 
resources that are so critical toward our very survival.
    If in fact Wisconsin loses a congressional seat, I guess it 
is my understanding that we would also lose Federal funds 
proportionate to that, and I think our Congressman Ryan 
mentioned earlier that that can be up to $240 million over 10 
years. I would be very concerned about the distribution of that 
loss throughout the State and I would be very concerned if in 
fact Milwaukee, Racine, places here in southeastern Wisconsin 
that bear a lot of the social burdens of low-income poor 
minority folk, would have to realize the brunt of that loss. So 
I am very relieved that at least a portion of the apportionment 
process is going to be more accurate so that at least resources 
will not be lost.
    Certainly our State has just elected its very first 
Hispanic to the State legislature and it takes about 15,000 
votes to elect someone to the State legislature. So any small 
undercount of minorities, ethnic minorities, is the difference 
between our having an assembly seat or not having an assembly 
seat. And certainly I am the product of a seat that was created 
by a U.S. District Court to advance the interests of more 
minority representation in our State. We are not a Texas or a 
California or a Mississippi or Georgia or Alabama, but our 
interests are the same as other ethnic minorities throughout 
the country in being counted.
    Mrs. Maloney. Well, my time is up. I must say I have 
enjoyed tremendously being addressed by two women members of 
the legislature. There are always firsts. This is the first 
time it has happened in all our hearings, so it is wonderful to 
have two very informed members of the legislature here. We 
appreciate very much your time and your input.
    Ms. Moore. And we appreciate it too. We sent our first 
woman to Congress last time and so now only Mississippi has 
never elected a woman to Congress. So, we are relieved not to 
be the very last State to do that. [Laughter.]
    Mr. Miller. Thank you. One comment just to confirm and 
assure the question about confidentiality. There are very 
strict Federal laws as to what the census information can be 
used for. And it is protected--it is very well protected. It 
cannot be shared with other Federal agencies. And so I think 
whenever we go through this process, we should all be 
comfortable in assuring the confidentiality and the privacy of 
that information.
    Congressman Ryan.
    Mr. Ryan. Thank you. Well, I too would just like to thank 
you ladies for coming to us today. Thank you for taking time 
out of your busy schedule, Representative Ladwig and Senator 
Moore, I really appreciate your participation.
    I wanted to ask you a question on local review, but first I 
would like to touch briefly on the issue that we have been 
talking about. As you know, I represent the First Congressional 
District, which has large pockets and a concentration of 
minority members, especially here in Racine, and in Kenosha as 
well. So I, too, absolutely believe we have got to do 
everything we can to make sure that these populations are 
accounted for in the census. And if they are not, that will 
dilute the representation, not only in Congress, but it will 
dilute the representation in State and local government and in 
Federal funding and all other important issues.
    What we have found is that in a forthcoming study from the 
Census Monitoring Board statistical sampling will actually harm 
those neighborhoods, will actually hurt those historically 
undercounted areas. And what I am talking about is now that we 
have had a chance to review the adjustment numbers from the 
1990 census, we have found that although sampling or adjustment 
actually adds numbers back to the region and to the State 
level, it does not put them back into those areas that are 
undercounted. So, for example, in the area surrounding this 
city hall right now in Racine, it has a large minority 
population. I toured it. I did a drive-around with the police 
just a few weeks ago looking at the weed and seed programs and 
the community policing programs. Let us assume that this is one 
of those undercounted areas. If this area has an undercount 
rate such as 20 percent, what the adjustment will do, based 
upon our new studies from the 1990 census adjustment, is that 
although the 20 percent will be added back in with adjustment, 
it will add about 18 percent of those 20 percent undercounted 
people to towns like Burlington or Union Grove, not to these 
areas, only about 2 percent to these areas.
    So when we are trying to put people back into the 
undercount in inner-city Milwaukee, with sampling we may end up 
actually putting those populations back into Brookfield or 
Waukesha. So what the experts have been saying, and in this 
forthcoming study from the Census Monitoring Board, is that we 
are not going to add them back into these historically 
undercounted areas. We will actually put them into other areas, 
thereby even diluting them even more. So I would ask you to 
take a look at this stuff when these studies become available 
and this analysis comes out.
    But I wanted to ask you another question about local 
involvement, because as members of the local legislature, of 
the Senate and the assembly, what do you think of the idea of 
having local officials having the chance of reviewing the 
census data after the census has been conducted? Right now, we 
have the LUCA program, which is the local update of the census 
addresses, which is taking place pre-census. Currently the 
Census Bureau does not plan on engaging in a dialog with 
locally elected officials and church groups and other groups, 
minority groups, to check the data after it has been counted. 
We did this in 1990.
    Do you think it would be a good idea to check the data 
locally after it has been counted, but before the final data is 
submitted?
    Ms. Moore. Thank you for the question, Congressman Ryan.
    Let me take your second question first. That may be a 
useful method so that local officials who know of peculiar 
areas within their communities or communities that have just 
experienced some growth or building--I know that the fire 
department often knows where people live and no one has any 
idea that they live there. That may be a very useful survey 
prior to certifying the final data.
    As it relates to your first question, I am not personally 
an expert in methods of statistical sampling. That is why in my 
testimony, I indicate that I am interested in the application 
of the best methods of scientific statistical sampling. It is a 
little bit difficult to understand or realize how statistical 
sampling would take more people out of, say, Milwaukee----
    Mr. Ryan. What actually it does, because if you look at the 
sampling issue, it is very ineffective at the local level, at 
the block level, at the neighborhood level. It may be more 
effective at a macro level, such as the State level, but 
actually it is very inaccurate. Charles Schultz, who was 
President Carter's economic advisor--he is a census participant 
and knows quite a bit about census economics, census taking--
has said that it is very inaccurate data and that he encourages 
that we not use sampling for the local levels, for those 
historically under-utilized areas, because it does not get 
precise information into the block level and the local level. 
It will actually take those undercounted people and assume that 
they live somewhere else, not in the areas that they actually 
live.
    So I think our goals are the same, which are to let us 
count people where they live and let us do the best job we can 
to count them. We know we have to do this. It is in the 
Constitution. So let us move forward in a cooperative agreement 
to do just that.
    Ms. Moore. Mr. Chairman, if I might--I know that you do not 
like to have these running discussions, but I am very 
interested in the comments that the Congressman has made and I 
would like to ask a question of him. I know that perhaps is not 
appropriate.
    I guess I am interested in what the facts were in the 
Supreme Court decision that led to their agreeing to 
statistical sampling for redistricting purposes, were they not 
satisfied that these scientific methods were accurate?
    Mr. Ryan. It was for the purpose of apportionment, so the 
Supreme Court did not rule for or against redistricting and 
Federal funding. The court ruling was narrowly focused around 
the sole issue of apportionment. But I would be happy to yield 
to my colleague as well.
    Mr. Miller. The Supreme Court ruled on the issues of 
reapportionment that it was against the law--it was not asked 
to go on redistricting and we can have opinions and it will 
probably eventually go back to the courts to get it resolved. 
So on redistricting, it is fairly confident we are not going to 
have two sets of numbers. But that will be for another court 
case and another day.
    Mrs. Maloney. Point of information and personal privilege. 
I think to clarify the opinion of Sandra Day O'Connor--first of 
all, they ruled only on the statute, not on the 
constitutionality part, but only on the statute. And they said 
in terms of apportionment that enumeration had to be used, but 
that was based on a statute. Now this was a prime issue, as Mr. 
Petri knows, for Wisconsin. In the last redistricting, there 
was a concern that there would be a shift of a seat from 
Wisconsin to another State. That issue is gone now. Wisconsin 
won what they wanted. There will be no shifting in 
apportionment between the States. But it went further to say 
that in terms of distribution of Federal funds and 
redistricting, to use modern scientific methods were feasible. 
So in a sense, it ruled for enumeration for purposes of 
apportionment, but for purposes of redistricting and 
distribution of funds, it ruled that the use of modern 
scientific methods could be used.
    So in a sense, Wisconsin won on the apportionment issue, 
and they could likewise win on the second issue, which is the 
distribution of funds, because you were greatly undercounted in 
Milwaukee.
    Ms. Moore. But what he said was that we could lose under 
sampling because it is so imprecise.
    Mr. Ryan. That is right.
    Mrs. Maloney. Let us get a scientific report on that. In my 
opinion, and from what I have read, Wisconsin would win.
    Ms. Moore. OK, thank you.
    Mr. Miller. Because of the time, we are going to keep 
moving along. Congressman Petri, did you have questions?
    Mr. Petri. Just very briefly. I appreciated your comment 
about the need to inform people that there will not be any use 
of any information provided for census purposes for other non-
census purposes. We have to keep driving that message home.
    Do you have any idea about when, how soon before the actual 
census begins, the Census Bureau and other organizations that 
are interested in an accurate census should begin the public 
outreach and information efforts through radio advertising, 
fliers that elected officials send out, church meetings and 
sermons, educating children and so on? Should it be done when 
the people are out on the street, or 3 months before, or should 
we be starting now for next year?
    Ms. Ladwig. I would think in the fall would be a good time, 
just an initial education program and then back off again until 
after the first of the year, because with the holidays coming 
up, it kind of gets lost in the shuffle. And I think it would 
be important to let people know exactly who does get the census 
information, what it is used for and why it is important to 
have.
    Ms. Moore. That is a very good question, I think, 
Congressman Petri, and I think Congressman Ryan talked about 
some focus groups, and my colleague, Representative Ladwig, 
talked about school groups. If you are going to have pastors of 
churches, heads of organizations, especially those 
organizations that deal with great numbers of minorities, the 
tribes here in Wisconsin, it might be a good idea to start 
those focus groups early on so that they can help gather folk.
    Mr. Miller. Thank you. Thank you both for coming, we 
appreciate your testimony and your official statements will be 
put in the record also, but thank you very much for sharing 
your thoughts with us today.
    Ms. Moore. Thank you.
    Ms. Ladwig. Thank you for coming to Wisconsin.
    Mr. Miller. It has been our pleasure.
    We are going to have a slight change in the schedule now. 
Both Mayor Smith and Mayor Antaramian have agreed that Jean 
Jacobson will go now because of her schedule. She will have to 
leave. So if Ms. Jacobson would come forward please. She is the 
Racine County executive.
    If you would just remain standing, Ms. Jacobson.
    [Witness sworn.]
    Mr. Miller. Would you proceed with your opening statement, 
Ms. Jacobson.
    Ms. Jacobson. I have not said that since the day I was 
married 35 years ago. [Laughter.]

      STATEMENT OF JEAN JACOBSON, RACINE COUNTY EXECUTIVE

    Ms. Jacobson. Congressman Miller, Congresswoman Maloney, 
Congressmen Ryan and Petri, welcome to Racine.
    This is a place that we are very proud to call home, here 
in Racine County, and I would like to thank you for the 
opportunity to address you this morning on the upcoming census.
    I understand that you are interested in examining ways the 
Census Bureau can improve its coverage and that you think one 
way to do this is to gather ideas from local officials and 
community groups. And let me tell you how absolutely refreshing 
that is. We so often feel that there is a great distance 
between us and the Capitol Building in Washington that is more 
than can be measured simply in miles. And it is really nice to 
know that you believe that those of us who are really the 
closest to the people that you are asking to count, we may have 
some good ideas about how we are going to do it.
    Believe me, we are extremely knowledgeable about the fact 
that an accurate count of the population here in Racine County 
is really extremely important to us. And with that in mind, my 
office has determined that our best ally in our local effort is 
the University of Wisconsin Extension Office. With their 
special training in outreach efforts of all kinds of things, 
they really have the skills that we are looking for to reach 
everybody.
    University of Wisconsin Extension is recognized across the 
State as well as within the county as an unbiased and very 
highly respectable resource for local government, for community 
groups, businesses and non-profit organizations. Mr. John 
Alliane, the community resource development agent, is here with 
me today, who will be heading up this effort.
    These people at the University of Wisconsin Extension are 
local people and they deal with local people on an everyday 
basis. They are very well respected in all of our neighborhoods 
and particularly as we have just heard over the last few 
minutes, in those neighborhoods where perhaps a stranger would 
not be as well accepted.
    What they have planned, and what I would like to tell you 
about today, is what we call the Racine County Census 2000 
Community Education Program. The aim of the program is to 
impress upon local municipal officials and community leaders 
the importance of obtaining an accurate count of our residents. 
Their enthusiastic involvement in the process is, we believe, 
very essential to their success.
    The key to this is education. The vehicle will be a forum 
to be held in October or November of this year, a time line 
which the other two ladies before me agreed would be a good 
time to start this process. Those who will be invited to the 
forum are going to include a number of people--local government 
elected officials, the town clerks of the 18 municipalities, 
the mayors and aldermen of our county's two cities, the 
presidents and trustees of our seven villages, the chairmen and 
supervisors of our nine towns, as well as the members of the 
County Board of Supervisors, business and civic leaders, 
representatives of local non-profit social service 
organizations, the clergy--very key people especially in the 
minority communities--educators and media representatives.
    Now these groups represent our stakeholders and we want 
them to all be included and be involved and very interested in 
this endeavor. Invitations to the forum will be sent in 
September to individuals from each of the identified 
stakeholder groups. Special care will be taken to ensure 
geographic and ethnic representation from all across Racine 
County. Every effort will be made to impress upon the invitees 
the vital importance of the topic, and information supplied by 
the U.S. Census Bureau relating to the fiscal impacts of the 
census should really be very helpful to everybody involved.
    We are going to have a number of speakers at this event. 
One will be the University of Wisconsin Extension census 
specialist, Dan Verhoff, and Shirley Warren of the U.S. Census 
Bureau. Mr. Verhoff will discuss the fiscal impacts of 
obtaining a complete count, various applications of this type 
of data and the difficulties that people are going to have in 
trying to determine an accurate count. Ms. Warren will tell 
attendees about the U.S. Census Bureau resources that are 
available to help everybody and to assist local communities in 
obtaining that accurate count.
    Now in addition, the Census Bureau's complete count 
committee structure will be presented and discussed. Attendees 
will be encouraged to form complete count committees at 
geographical levels that they deem suitable and will be given 
the opportunity to modify the structure of the committee to 
suit local needs. I think what is important here is the 
committees, and the structure is going to be formed by 
themselves and the people who are going to be involved locally.
    I can envision a number of different possible outcomes from 
this process. Attendees might decide to form a single 
countywide committee; they may decide to form two committees, 
one for the western part of the county and one for the eastern 
more incorporated areas; maybe one for the towns, which in 
Wisconsin are the unincorporated areas. They may well come up 
with either or an entirely different idea. It is going to be 
their decision and the important thing is that it is their 
decision. They are going to have some ownership in it, and 
therefore, there will be a greater interest on their part in 
having it all be successful.
    Regardless of the outcome and the structure that they 
select, the University of Wisconsin Extension is going to 
function as the information conduit to the attendees. And they 
will assist these newly formed committees by arranging and 
facilitating the initial meetings. When you get neighborhood 
groups together, they do not often know how to facilitate 
themselves and get the job done, and that is where the 
University's expertise lies. And they also are very good at 
connecting groups with resources, both State and Federal.
    These committees will serve as a link between the U.S. 
Census Bureau and the local community. And one of their most 
important functions is going to be communication. And that is a 
subject that we have talked about quite a bit this morning. We 
believe that the better the communication between the Bureau 
and the committees and between the committees and our citizens, 
the more likely we are going to end up here with probably the 
best count that we possibly could have.
    This program, and the support that the Extension Office 
will provide in the months that follow, will supply local 
leaders with information to encourage their continued 
involvement as well as providing them with sufficient direction 
to take action. I think we as local leaders will hear really 
quickly what difficulties these committees are having and 
hopefully we can step in and help them out before the census is 
over.
    I do not think I have told you anything earth-shaking here. 
You probably have heard and will hear a lot of variations on 
the same theme as you conduct your travels. However, the same 
process will result in as many different outcomes as there are 
communities, and the ability for us to tailor our efforts to 
our particular circumstances is what keeps this from being a 
cookie-cutter process. And it is hopefully going to ensure a 
very successful outcome.
    I thank you for your kind attention here today and really 
appreciate you coming to Racine County. I have had the 
opportunity personally to testify in Washington at a committee 
similar to this, and I have to say that this is really nice to 
have you come back to our neighborhood to do this.
    I hope that your visit here in Racine County is very 
pleasant and that you will remember us as a very warm and 
hospitable community.
    I do not have any creamer with me, but hopefully--oh, there 
is some here. Please stuff your pockets with whatever is left.
    And again, thank you, Paul, I am sure you had a lot to do 
with coming here. It is really great to have you come to the 
chambers here in the city and listen to us.
    Mr. Miller. Thank you very much, Ms. Jacobson. Because we 
are adding another panel, we are just trying to hold ourselves 
down to one short question.
    I am impressed that you have organized this community 
education program for this October or November. Who took the 
initiative to do that? It takes planning and organization. You 
have already got your speakers. Who made that decision and 
proceeded with it. Was it you or the mayor or----
    Ms. Jacobson. The decision to go with University of 
Wisconsin was my decision. The University of Wisconsin 
Extension Office here in Racine County is a tremendous 
neighborhood outreach program where they do many things, 
including community gardens in local neighborhoods. They do a 
lot with teaching people how to cook their foods and stay 
within a budget, and they are very close to our community. And 
what better organization here in our county to take on this 
initiative. And when I called them, they just jumped at the 
possibility. Already within Wisconsin they were teaching the 
University of Wisconsin Extension staff the process of census 
taking and how this will work in the community. So it was just 
an absolutely perfect match.
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. Congratulations on all you are doing. It is 
very, very encouraging, and I appreciate really the effort of 
leaders such as yourself in your State that are working on an 
accurate count.
    Is your county participating in the local update of census 
addresses program, LUCA? In the last census, it was not 
particularly productive and what they tried to do was 
incorporate it earlier. There is no reason why you cannot get 
every address. They have this program they have been exposing 
to cities and counties across the country and I am wondering 
are you participating in this address check program of the 
Census Bureau?
    Ms. Jacobson. I am not familiar with it, I have to admit. 
And I do not know whether the Extension Office is or not, but 
when the last census was taken, I was not the county executive, 
so I did not know what that process was.
    Mrs. Maloney. That might be something that you could add to 
your efforts.
    Mr. Ryan. If I could add, the mayor of Racine, who will be 
testifying in the next panel, Jim Smith, is implementing LUCA.
    Mrs. Maloney. Oh, he is, so it is being done through your 
mayors and not----
    Ms. Jacobson. It could be done through an entirely 
different level of government.
    Mrs. Maloney. And I understand last time your legislature 
participated greatly in giving moneys and everything to get an 
accurate count or to donate services, and I hope they plan to 
do the same in 2000. Are you aware of any efforts of the cities 
or the State to supplement the efforts?
    Ms. Jacobson. No, those questions should be directed 
directly to those municipalities.
    Mrs. Maloney. Thank you very much, thank you for your 
efforts.
    Mr. Miller. Mr. Ryan.
    Mr. Ryan. Well, I know you have to get going, Jean, so I 
will just be very brief. Thank you for coordinating this and 
putting this together.
    The Extension is a very sensible idea, it makes perfect 
sense to use the UWE system, which is a very, very impressive 
system here in the State of Wisconsin. And thanks for 
participating in this.
    I just want to ask you the same question I asked Senator 
Moore and Representative Ladwig, which is in putting together 
this system and in working with LUCA, such as the mayor, do you 
believe that it would be appropriate and wise to have local 
input on the data after the data had been collected, but before 
it is finalized, to make sure that the Census Bureau does not 
miss anything? Do you think that would be a----
    Ms. Jacobson. Oh, I would certainly agree. I think it is 
much better at that time than after. Once it is filed, it is 
very difficult to re-address it, and some problems may surface 
at that time that are very recognizable.
    Mr. Ryan. OK, thank you.
    Mr. Miller. Mr. Petri.
    Mr. Petri. Just briefly, if you do not think of the answer 
and you think of it later, I am sure the committee would be 
happy to hear from you. This will probably be the tightest 
labor market in which we have ever conducted a census. I was 
thinking back every 10 years. I do not think we have had one in 
time of national emergency or war in the past. An awful lot of 
people are hired on a part time basis, quasi-volunteer basis, 
to go out and actually conduct the count. Do you have any ideas 
or suggestions about how we can reach out to involve people to 
actually do the count, since so many more people are working or 
busy than ever before?
    Ms. Jacobson. You bring up an excellent point. We have been 
very concerned about that in Racine County. Our unemployment 
rate is extremely low. We have a state-of-the-art work force 
development center which could help in that regard and to use 
that data base to hire people. I think we are going to find it 
very difficult to find those people; however, I think there 
still are people available who would be willing to work on a 
part-time basis without going to work full-time. Perhaps 
mothers and even teachers in the off season. I think there are 
a lot of innovative things that we could do. But our work force 
development center could be of service in our own particular 
county to work in that regard.
    Mr. Petri. Thank you.
    Mr. Miller. Thank you very much for being here today. We 
appreciate it.
    Ms. Jacobson. Thank you.
    Mr. Miller. Now if we could have Mayor Smith and Mayor 
Antaramian--I am getting better.
    Mr. Ryan. Mayor Antaramian representing the Armenian 
population.
    Mr. Miller. If you would let me go ahead and swear you in 
before you get seated. Raise your right hands.
    [Witnesses sworn.]
    Mr. Miller. Let the record show that the witnesses answered 
in the affirmative.
    First of all, let me say, Mayor Smith, thank you very much 
for letting me sit in your chair today. I never sat in a 
mayor's seat before.

 STATEMENTS OF JAMES M. SMITH, MAYOR, CITY OF RACINE, WI; AND 
         JOHN M. ANTARAMIAN, MAYOR, CITY OF KENOSHA, WI

    Mr. Smith. Thank you, Chairman Miller and the Congressmen 
who are here today. I think it is an honor that we can host 
you. I appreciate you having a hearing here in Racine.
    I have some remarks that I would like to give at this time, 
because the census 2000 is very important to the city of 
Racine, for a number of reasons. I appreciate the opportunity 
to appear before the subcommittee to share with you the 
importance of an accurate census count. The efforts the city 
will be undertaking to help ensure that all the residents of 
Racine are counted and to indicate my support for the passage 
of H.R. 472, known as the Local Census Quality Check Act.
    The city of Racine is a wonderful community located on the 
western shore of Lake Michigan. The community is blessed with a 
diversity of ethnic groups that make up its estimated 1998 
population of 85,552. This variety of ethnic groups within our 
community includes many of those groups that were considered to 
be under-counted in the 1990 census. It is very important to 
the city of Racine that the year 2000 census results in a 
census count that is as close to 100 percent as possible. To 
that end, the city of Racine is committed to working with the 
Census Bureau to ensure that the goal is met.
    As stated earlier, it is important that all people in the 
city of Racine be counted in the year 2000 census. We know from 
past census experience that there are segments of our 
population that, for whatever reasons, either do not answer the 
mail-out questionnaires or do not respond to personal followup 
contacts at census time. We recognize that we, along with the 
Census Bureau, need to make a special effort to ensure that all 
the people of Racine are counted in the census.
    In the late fall of this year, I will be appointing a 
complete count committee which will consist of a broad cross-
section of people, organizations and media of our community. 
This complete count committee will work to establish a network 
of information regarding the census, arrange for the 
distribution of materials for posting in public places, develop 
a media campaign and contact as many of our citizens as 
possible so that they are counted in the census.
    In addition to the efforts of our local complete count 
committee, we anticipate working very closely with the local 
staff of the Census Bureau to ensure that a successful census 
is conducted within the city of Racine.
    I would also like to take this opportunity to express the 
city's support for the passage of H.R. 472, known as Local 
Census Quality Check Act. A local census quality check was used 
in the 1990 census as a tool for local governments to help 
ensure the accuracy of the census count. This was a 
particularly valuable tool for communities the size of Racine. 
Local staff was provided the opportunity to review addresses 
and counts before the census was finalized. I believe a similar 
local census quality check for the year 2000 census will be a 
very valuable tool in ensuring that as accurate a count as 
possible is secured. It is especially appreciated that the 
proposed legislation provides for a 45-day period for local 
review.
    And I thank you for the opportunity to appear before the 
subcommittee today.
    Mr. Miller. Thank you very much, Mayor Smith.
    Mayor Antaramian.
    [The prepared statement of Mayor Smith follows:]

    [GRAPHIC] [TIFF OMITTED]61509.006
    
    [GRAPHIC] [TIFF OMITTED]61509.007
    
    Mr. Antaramian. Thank you, Chairman Miller, and Members of 
Congress--that was very good.
    I, too, have a statement that has been given to you and I 
am not going to read it. I am going to touch on a couple of 
areas in the statement and then a couple of other areas I would 
like to touch on as I have listened to the conversation.
    First off, the LUCA program, we think, has been a wonderful 
program. However, one of the problems that we have is that as 
the program was implemented and explained to us was that you 
were going to have a detailed feedback and a final 
determination. The detailed feedback has now been eliminated. 
That goes back to the process of the local unit of government 
being involved at an earlier stage to review what exactly was 
happening and what the addresses looked like so that we could 
enter into this at an earlier time and help to correct any 
problems that we may see. I think the change that has occurred 
with that being removed is a mistake. I think that one of the 
things this committee should look at is to try to keep the 
number of things that you do small, but done correctly and 
accurately. And so I would again recommend that at least for 
the LUCA program, that you relook at that and make sure that 
the local units of government are involved at an earlier time 
than what is presently going to be happening.
    I am going to touch a little bit on the American 
factfinder, though I do not know that anyone has talked about 
that, on the computer process. According to staff, at least my 
staff, as they have been working through this process, what we 
have discovered is that the program that is in place is not one 
that is very good. It is difficult to get information. The 
previous 1990 census look-up program that you had is much 
easier to use and, actually, we get a great deal more 
information off that than we do off the new one. So I would 
recommend, at least, that you look at those types of things as 
to how we are able to generate our data and get our 
information.
    I guess that my information is a little more technical as 
my staff has started to work through some of these things and 
explained it to me. And I do not necessarily wish to go into 
those other than to say that for the city of Kenosha, it is 
very, very important that the numbers be correct. It is not 
only because of the Federal Government and what you have, as to 
revenues that come back to us, but it is also very important as 
to how the State determines revenues back to the city of 
Kenosha. The shared revenue formula is based off, in part, a 
head count, so that if your numbers do not totally reflect the 
numbers of the city of Kenosha, it cannot only affect my 
Federal dollars, but State dollars that come back to me. And so 
that becomes another issue to us, that it is important to make 
sure that your numbers are as accurate as possible.
    Kenosha has been one of the few communities that has 
challenged the State in the past on those numbers and has been 
successful in getting the State to modify its population 
numbers. And it was done in such a way in which we used drivers 
licenses, housing and statistical processes along with 
neighborhood groups to determine how and where the numbers were 
that we needed to show to the State that they were off.
    So I think a combination of things need to be done if we 
are going to get an accurate number.
    And so with that, I appreciate you allowing me to come here 
today and to speak before you.
    [The prepared statement of Mayor Antaramian follows:]

    [GRAPHIC] [TIFF OMITTED]61509.008
    
    [GRAPHIC] [TIFF OMITTED]61509.009
    
    Mr. Miller. Thank you very much and thank you again for 
making this facility available for us today.
    You mentioned the local census quality check, or as was 
used in 1990, the post-census local review. The House passed 
it. Unfortunately, the administration is opposed to it, which 
we think is unfortunate. The National League of Cities, which I 
suspect you all might be, or the National Association of Towns 
and Townships, were very supportive of that plan because it was 
helpful in 1990, and I am a little baffled why we do not want 
input.
    But what makes it even more concerning to me now is, as you 
mentioned, the detailed feedback process has been dropped. We 
all say how we need local input and local support, and now the 
administration does not want to have the post-census local 
review or the local census quality check to give local 
communities a chance to check the numbers. Now even under the 
LUCA program, which I am glad we are doing, you are not going 
to have a chance to have the detailed feedback process because 
they say they do not have enough time to do that. That is 
disappointing to me, too.
    Let me ask a question. In your opinion, what is the most 
undercounted and hardest to count population of your individual 
cities? I know you were in the detailed process in 1990 or 
certainly before that, but who do you think would be the most 
difficult to count, and maybe why, and maybe, what can be done 
to help go after that?
    Mr. Smith. Speaking for the city of Racine, I think first 
of all, the homeless population is very difficult, even in a 
city the size of Racine. I know it is perhaps an even larger 
problem in our larger cities in the Nation, but that certainly 
is a problem. And you know, I think the Hispanic population in 
the city of Racine is the fastest growing group in our city, 
and I believe, for a number of reasons, that was undercounted 
in 1990 and it is going to be very important that we get a 
correct count, as close to a correct count as we can in the two 
groups.
    Mr. Antaramian. The minority population in Kenosha would be 
the most difficult at this time. And I would also add that the 
Hispanic community is the fastest growing population in the 
city of Kenosha and that it as a group, if I were to break it 
down, would be the most difficult at the present time.
    Mr. Miller. The Hispanic community, does it have its own 
media, radio, newspapers? Are there organizations that work 
closely with the Hispanic population? I know when we were in 
Miami, you have a Cuban and a Haitian population and there are 
very targeted areas. Is that true in these communities?
    Mr. Antaramian. In Kenosha, there is a Hispanic community 
group, a Spanish center that is a very cohesive group and one 
that the city works with closely.
    Mr. Miller. The Census Bureau has something called the 
partnership programs, and hopefully they should be part of this 
partnership program because, as the earlier panel said, Senator 
Moore was saying when you go to the Hispanic community, make 
sure you have people from that community that are going out 
knocking on doors. So, I hope they are already part of the 
partnership program, but this is a program that the Census 
Bureau offers to any group that is interested, to get involved 
in.
    Did you have another comment?
    Mr. Smith. We have identified some of the Hispanic 
leadership in our community already that are going to be 
involved in our committee and I think the churches are very 
important along with a weed and seed program here in the city 
of Racine. They have a Hispanic liaison person there who will 
be working very hard to make sure that the count is as correct 
as it can be.
    Mr. Miller. Your Hispanic population is Hispanic from 
where? Is it from Mexico, Central America--is there one special 
area or is it just----
    Mr. Smith. Well, I think the Hispanic population in the 
city of Racine, the one area that we believe is the fastest 
growing area of Hispanic population, is on the north side of 
town around St. Patrick's Church. You are not familiar, of 
course, with Racine, but it is not too far from where we sit 
here, but that is a high concentration of Hispanics. St. 
Patrick's Church has Hispanic service, a great outreach program 
and they will certainly be involved.
    Mr. Antaramian. It is pretty much from around the country. 
They are not any from any specific location.
    Mr. Miller. From what country?
    Mr. Antaramian. All around--from all parts of this country, 
the Spanish community has been moving into this area. Since 
employment has increased, we have seen more and more people 
coming to this region to relocate. So it has been just, I would 
guess, a natural type of situation, but it is our largest 
growing population at this time.
    Mr. Miller. How has your experience been so far in working 
with the Census Bureau, or have you had much dealings directly 
with the Census Bureau?
    Mr. Antaramian. Again, I will speak in the sense of having 
discussions with my staff. In general, they have felt fairly 
positive about the Census Bureau and working with them. The 
concerns that they have had has been in some cases, some lack 
of training that they feel is necessary for getting certain 
types of information back to people, and also, as I said 
before, the concern about maintaining the programs that you 
have there and actually following through with what you are 
telling us that you are going to do. That becomes a concern for 
staff.
    Mr. Miller. Anything to add, Mayor Smith?
    Mr. Smith. Well, I just asked city development to give me 
our latest stats on our population and we have looked at the 
white population in the city of Racine, which has gone down 
about 8 percent from 1980 to 1990. The African-American 
population has gone up 23 percent, and other, which for the 
most part is Hispanic, has gone up 51 percent. So, that kind of 
shows why it is so important to make sure that the minority 
population is counted as correctly as it can be.
    Mr. Miller. The forms will be in Spanish and five other 
languages besides English. We think it should be in even more 
languages, but it will be at least 5, and instructions in 30 
some languages.
    Congresswoman Maloney.
    Mrs. Maloney. I would like to follow up on a point that was 
raised that the Address List Correction Act is not being 
followed appropriately. As you know, in 1990, there was post-
census local review and according to Dr. Bryant, who was 
appointed by former President Bush, it was neither cost-
efficient, nor effective. And specifically, about 12 percent of 
the 124,000 people added to the census count were added 
erroneously and half of the units added were in two cities 
alone--Detroit and Cleveland. And about 25 percent of the 
governmental units participated in the program and less than 20 
percent filed challenges that met the specified criteria. So 
Congress, in a bipartisan way, acted to approve it, and in a 
bill that was passed by Representative Sawyer from Ohio and 
Ridge from Pennsylvania, they passed the Address List 
Correction Act, which created a pre-census local review 
process. It allows the Census Bureau to share its address list 
with local governments, which they were prohibited from before, 
so that they are sharing, supposedly, these address lists. They 
should be sharing these address lists with you, and the address 
list should be modified based on local input. You should be 
able to get back to them and tell them whether or not this list 
is correct. And the bill also called for an appeals process to 
be designed by the Office of Management and Budget. This is 
what should be implemented.
    And if that is not being implemented, I want to know about 
it and in fact, at all of our hearings, there is a 
representative from the Census Bureau. Is there one here today? 
Is there somebody from the Census Bureau here today? We have 
got one person.
    Can you meet with the two mayors, and I want to hear, and I 
am sure the members of the panel want to hear. That is the law. 
They are supposed to give you the list. You are supposed to be 
able to get back with any corrections and this is supposed to 
improve the count.
    I think one of the statements earlier by Senator Ladwig was 
very important. You should not miss the home; you should be 
able to count it; you should be able to count the addresses. 
The problem is, in her words, you could miss who is in the 
home. But you should be able to get the addresses. I want a 
written response from Dr. Prewitt on how this is working and I 
want this sent to the mayors because you should be able to use 
the process as it was bipartisanly passed earlier.
    I really want to get a sense of what is happening in your 
cities. You mentioned earlier, Mayor Smith, that there were, 
you know, some changes in the population. First of all, I want 
to know, have you designated one person in your office to work 
with the Census Bureau, so you have a direct contact that can 
help you and they know who to contact? That would be helpful. 
Have you done that?
    Mr. Smith. There is going to be an alderman who is going to 
be the chairman of that committee.
    Mrs. Maloney. OK.
    Mr. Smith. But for the most part, I think the city 
development office and Dick Lensmeyer will be coordinating that 
as far as the city of Racine.
    Mrs. Maloney. Can I ask you both a few questions? What is 
the current population of your city?
    Mr. Antaramian. The city of Kenosha is roughly 87,000.
    Mrs. Maloney. 87,000. And----
    Mr. Smith. I believe I mentioned that in my testimony, but 
it is about 85,200 or so. Our population has decreased. You 
know, we used to be larger than Kenosha not that long ago and 
Kenosha passed us up because of some border issues we had here 
in the city of Racine. We have two townships that surround the 
city of Racine, the two largest townships in the State, and the 
projections are that those townships will equal the city of 
Racine's population by----
    Mrs. Maloney. But the city of Racine is roughly 85,000.
    Mr. Smith. Correct.
    Mrs. Maloney. Now what is the current population estimate 
of the number of Hispanics, black Americans, Asians and other 
minorities in your city. Not a percentage, but do you have a 
number? Is it 10,000, 20,000, 30,000, 5,000--an estimate.
    Mr. Smith. The estimates for the city of Racine for 1990 
was 64,378 Caucasian, 15,551 black and 4,364 other. And we know 
that the Hispanic population is grossly undercounted there.
    Mrs. Maloney. That was in 1990, but what is it now? What do 
you estimate it is now in numbers?
    Mr. Smith. I do not have that number now, ma'am.
    Mrs. Maloney. Do you have a sense?
    Mr. Smith. I believe I could get that, but I do not have it 
here with me.
    Mrs. Maloney. Do you have it?
    Mr. Antaramian. I would roughly estimate the minority 
population in the city of Kenosha ranges between 11,000 and 
12,000 right now.
    Mrs. Maloney. And what was it in 1990?
    Mr. Antaramian. It was probably about 8,000.
    Mrs. Maloney. About 8,000, so it has been growing. Well, my 
time is up. I have some more questions, maybe I will submit 
them in writing, but anyway, I think mayors are great. You are 
on the firing line taking care of people's problems, and you 
are going to be part of the real important link in getting good 
counts for our cities. It is vital to you, because, as you 
know, the funding formulas are tied to senior centers, roads, 
bridges, houses, day care--everything.
    Anyway, my time is up. The chairman is being tough on us 
today. He wants to keep us on schedule so we do not miss our 
planes back to Washington.
    Mr. Miller. Mr. Ryan.
    Mr. Ryan. Thank you very much, gentlemen.
    Mayor Antaramian and I just participated in the Kenosha 
parade yesterday, so we are fresh from the parade trail.
    I would like to start with you, John, if I could. You 
mentioned your experience with the LUCA program has been less 
than perfect, a little troubling. Your involvement with the 
Census Bureau has been welcome, it has been friendly, but that 
the Bureau omitted the detailed feedback portion of the process 
is the troubling portion. In your opinion, given the fact that 
they have eliminated this process, what do you think of the 
opportunity to participate in a post-census local review to go 
over the data to help make sure we get the most accurate count?
    Mr. Antaramian. I think any opportunity we have to review 
the data and to try to make it correct or to at least point out 
where we think there may be problems is a positive. I still 
think, though, the Census Bureau would be better served in 
getting this done and moving it forward as they had initially 
proposed it. Though that may now create some time restraints, I 
still think that would be a better process to get a more 
accurate number.
    Mrs. Maloney. Point of information. As I said from the law, 
they are supposed to be giving you feedback or allowing you to. 
No. 1, you should be able to get the address list and you 
should be able to correct it now. And if they are not doing 
that, then something is terribly wrong, and as I said, I want a 
report from the Census Bureau on what is happening here and 
they will work on it. As I understand it, they have not changed 
the procedure at all. They should be giving you that 
information and giving you a chance to respond. And if they are 
not, they are not following the law that was passed in a 
bipartisan way back in 1994.
    Mr. Ryan. Just to add--actually to answer my colleague's 
question about the Hispanic populations here in Racine and 
Kenosha--I have on my staff a former interpreter at the Kenosha 
Hispanic Center, Theresa Chavez-Moore, who is here with us 
today, who helps us offer bilingual services in our constituent 
service centers, which are located here in Racine and Kenosha 
to these populations. We are helping them, you know, with 
problems they may have with the Federal Government, INS 
problems. But what I wanted to point out is that Theresa has 
informed us that we do have a couple of radio stations here--I 
am going to butcher this, but it is La Tremenda and Radio 
Ombiente and local TV stations, Univision and Galavision, which 
are based out of Chicago, which do serve the Hispanic 
populations. Which to answer your question, Chairman Miller, 
the vast majority of them come from Mexico, as far as 
nationality, but we do have Hispanic populations here that do 
come from El Salvador and other countries.
    But going into this extension, Mayor Smith and Mayor 
Antaramian, I wanted to ask you; hopefully, we can work 
together with the bilingual communities, with the Hispanic 
communities, in the Kenosha and Racine Hispanic Centers to try 
and make sure that these privacy concerns can be addressed.
    One of the concerns I have heard is the immigration 
concerns. A lot of the Hispanics in Racine and Kenosha are 
concerned that this may have something to do with immigration 
policies--the census. It does not, but we need to do a good job 
of communicating that.
    But I wanted to ask you, Mayor Smith, because you also are 
participating in the LUCA program, what your thoughts are at 
this stage about the LUCA program and do you think it would be 
advantageous for you to have the ability to, with the alderman 
you are putting in charge of this, with your CCC and working 
together with Jean Jacobson and others, to participate in a 
post-census local review. Having a chance to look at the census 
data after the census was conducted, before it is etched in 
stone, to make sure they did not miss anything. Do you think 
that that would be advantageous?
    Mr. Smith. I believe that is critical, Congressman. I 
chaired the 1990 correct count committee for the city of Racine 
as alderman in 1990 and we had very little feedback from the 
Census Bureau at that time. So if indeed this is a reform 
committee on the census, we look forward to your cooperation to 
make sure that we have a good count here in the city of Racine 
and Wisconsin.
    Mrs. Maloney. Point of clarification. Have you gotten the 
address lists from the Census Bureau? They are supposed to give 
you their address lists, have you gotten those?
    Mr. Antaramian. I do not believe so.
    Mr. Smith. I am not aware of that, unless it went to 
another department.
    Mrs. Maloney. Are they supposed to have been out by now? If 
we have someone from the Census Bureau--are the address lists 
supposed to be out to the local governments now?
    Mr. Miller. Well, he is not sworn in and he is not at a 
microphone. We will get it clarified.
    Mrs. Maloney. OK, I request this be clarified in writing, 
the timeframe of when the address lists are supposed to go to 
local governments, and according to the law that we passed, 
local governments are supposed to be able to respond to the 
address lists and if they do not like what the Census Bureau is 
doing, then they can appeal that process. That is the law that 
I think Mr. Petri and Mr. Sawyer and others passed.
    Mr. Ryan. Well, reclaiming my time, I see the light is out. 
This could be a troubling development if the LUCA program is 
not working within the spirit of the law that was passed. And 
if that is the case, hopefully we can work together here in 
southern Wisconsin to put together teams to focus on 
participation in the census. If LUCA is not being implemented 
as it was envisioned, hopefully the Census Bureau can rethink 
its position on post-census local review and allow that local 
participation to take place.
    Thank you.
    Mr. Miller. Mr. Petri.
    Mr. Petri. Just briefly and broadening the concern about 
undercount or non-counted populations. You both represent sort 
of a dwindling breed in America in some parts of the country, 
and that is larger, medium-sized cities that are home to 
statewide or national or even international headquartered 
companies. And one area of non-count now are private American 
citizens working overseas. Congress has acted to make sure that 
they can vote; the IRS keeps after them to make sure they pay 
taxes. Would it be helpful to your cities if the people who 
work for Johnson Wax in other countries, in Russia and 
everywhere else, who are American citizens, who are basically 
long-term residents of this city but who are on assignment 
overseas, as there are tens of thousands at Exxon and all kinds 
of other American corporations, that they could be counted to 
and attributed back to the area in the United States where they 
have permanent residence.
    Mr. Smith. Well, you know, that is a very good comment. I 
am sure in 1990, we did not do any work in that area, but our 
business community in the Racine area, manufacturing commerce, 
I think would be very cooperative in polling the companies that 
are international to make sure that we do get those individuals 
counted.
    I think the other area that I am concerned about, I talked 
to Congressman Ryan about it, and that is the out-of-state 
prison population. I do not know how Congress is going to deal 
with that, but I understand there was at least some talk about 
those individuals not being counted as State residents, perhaps 
city of Racine residents.
    Mr. Ryan. If Congressman Petri will yield, to answer your 
question, Jim, Congressman Mark Green, who is a former 
colleague of Mayor Antaramian's from the assembly, he is a 
Congressman now from Green Bay, has introduced legislation to 
count prison populations in their home of record. 
Wisconsinites, we actually export quite a bit of prisoners to 
other States such as Texas. He has introduced legislation to do 
that. Unfortunately, the Census Bureau opposes that 
legislation. I have introduced legislation to count domestic 
military personnel. Wisconsinites who are sent to military 
bases right now overseas will be counted in Wisconsin at their 
home of record. I have introduced legislation to make sure that 
that extends to domestic military bases. So if you are a Racine 
resident, you vote in Racine, you pay taxes in Racine, you are 
coming back to Racine after you are done in the military, but 
you are stationed at Fort Benning or the 82nd Airborne in North 
Carolina, then you would be counted in Racine as a resident. 
Right now, we are not sure where the Census Bureau is on that 
piece of legislation, but just to give you an update on some of 
these dynamics, that is where we are with that.
    Mr. Miller. One of the things I have found involved in this 
job, I did not realize you export prisoners until we had a 
hearing--that was a new one to me.
    Mrs. Maloney. We move them around the State. Where are they 
going to be counted, upstate or downstate?
    Mr. Miller. I also find interesting the large Hispanic 
population in Wisconsin. I would not have thought this far from 
Central America that they would be such a growing population. I 
know that is true obviously out in Arizona, Texas, California 
and Florida, but actually, you have a much larger Hispanic 
population than I have in my congressional district in Florida. 
So, I found that interesting up in this area.
    Mrs. Maloney. Ask them about the American Indian 
population.
    Mr. Miller. How about your American Indian population, do 
either of you have very much in your cities?
    Mr. Smith. Very small.
    Mrs. Maloney. But what is the number of the population, I 
am just curious?
    Mr. Miller. Well, let me thank both of you for coming today 
and again, Mayor Smith, thank you very much for making 
available the chambers today. We appreciate that and we find 
this very worthwhile, very beneficial. Thank you very much.
    Mr. Smith. Thank you for being here.
    Mr. Antaramian. Thank you.
    Mr. Miller. Our next panel will be Mr. Robinson, Mr. Kehl 
and Dr. Voss.
    If you will stand, we will go ahead and swear you in. Raise 
your right hands.
    [Witnesses sworn.]
    Mr. Miller. Let me again welcome you. I apologize for the 
delay in getting started this morning and I appreciate you 
sitting through the other panels. We will begin and we will 
start with Mr. Robinson.

STATEMENTS OF NATHANIEL E. ROBINSON, ADMINISTRATOR, DIVISION OF 
  ENERGY AND INTERGOVERNMENTAL RELATIONS, OFFICE OF GOVERNOR 
TOMMY G. THOMPSON; ALLAN K. KEHL, KENOSHA COUNTY EXECUTIVE; AND 
  DR. PAUL VOSS, DEPARTMENT OF RURAL SOCIOLOGY, UNIVERSITY OF 
                    WISCONSIN AT MADISON, WI

    Mr. Robinson. Mr. Chairman, thank you. I would like to 
welcome both you and Congresswoman Maloney to God's country, 
the great State of Wisconsin. On behalf of Governor Tommy 
Thompson, he asked me to specifically say those words to you, 
our very special guests.
    My name is Nat Robinson and I am administrator of the 
Division of Energy and Intergovernmental Relations, and it is 
within that Division that our Demographic Service Center is 
housed, the Demographic Service Center oversees, or we are the 
link between the U.S. Census Bureau and the implementation of 
the census taking process here in Wisconsin.
    It is Wisconsin's goal to have the best--when I say best, I 
am talking about the most accurate and complete--census in the 
Nation. Today, I will outline Wisconsin's efforts to help local 
units of government achieve that objective and I will also 
summarize some of our concerns as we approach census 2000.
    Let me first talk about partnering. In conjunction with the 
U.S. Census Bureau, the Wisconsin Department of Administration 
and its Demographic Service Center and our partners to include 
the University of Wisconsin's Applied Population Laboratory and 
its partners, we are administering several initiatives to 
enhance the quality, as well as the accuracy, of the census 
2000 process.
    Efforts that are being undertaken, or have already been 
undertaken, include updating the address lists, updating census 
maps to facilitate the process of census taking next year, as 
well as the post-census local review process.
    In addition, we are assisting local officials and their 
State representatives and encouraging them to participate in 
what we call the preparation for census 2000.
    We have also employed what we call a full-time 100 percent 
person who is devoting 100 percent of time to providing 
technical assistance, training and hands-on assistance to the 
Census Bureau and local units of government within Wisconsin. 
This person works very closely with the Bureau's government 
partnership specialist to establish the complete census count 
committees in Wisconsin, and as a result of that collaboration, 
we have over 150 complete-count committees to date and we are 
currently expanding those throughout the State of Wisconsin.
    To make this program even more effective, Mr. Chairman, we 
would ask that funding, if at all possible, be provided by the 
Census Bureau to assist with making sure that our preparation 
for achieving that accurate and complete census count starting 
next April 1 is made a reality. Or in lieu of moneys, we ask 
that more government partnership specialists be hired in the 
field. We have an excellent working relationship with our 
specialist, but she has a large territory and even with our 
efforts, our combined efforts, there is still lots of work to 
be done.
    Our census outreach specialist performs a variety of 
technical assistance, as I said, and other duties for the 
purpose of enhancing the capability of the local governmental 
units, including designing promotional material and 
distributing to the public things like brochures, along with 
meeting with any group who wish to meet with us. All of these 
activities are geared on promoting that complete and accurate 
census goal that I previously talked about.
    To help us in this endeavor, we want to assure that 
Wisconsin residents benefit from the fair share of the Census 
Bureau's planned public awareness budget. Governor Thompson has 
already written to Dr. Prewitt, asking that Wisconsin receive 
our fair share, which will amount to some $6 million of what we 
understand to be an anticipated $300 million budget for the 
census awareness campaign. The fair share of $6 million 
represents about 2 percent of the total, which Wisconsin's 
population translates into about 2 percent of the Nation's 
population.
    Also, Wisconsin has asked the legislature to appropriate 
about $750,000, as was appropriated for the 1990 census, to 
further assist with the preparation process for census 2000.
    According to the current population estimates and 
projections from the Census Bureau, Wisconsin definitely would 
have to work very hard if we want to maintain all of our 
congressional seats and continue our very strong voice in 
Washington. And by the 1990 census results, we know that we can 
do this in partnership with the Bureau and with our partners 
throughout Wisconsin. As you know, and as has been noted here 
today, in 1990, the census showed that Wisconsin had the 
highest response rate to the census questionnaire and one of 
the lowest undercount rates in the Nation. We had 30,000 
undercounted in Wisconsin, so while we did well in terms of 
being the first in those other things, obviously a lot of work 
still needs to be done.
    If the 2000 census were to yield the same number of 
undercounted residents, it would be equated to the city of West 
Bend, Mr. Chairman, a city in the State of Wisconsin that has 
about 30,000 residents. So, that gives you a magnitude as to 
what the 30,000 population undercount does for the State of 
Wisconsin. And of course, you have already heard about the 
number of Federal dollars over the 10 year period that would 
result from the undercount if it were the same in 2000 as it 
was in 1990.
    So, it is imperative that we continue these partnerships 
and we are intending to do that.
    Someone mentioned prisoners. Our position is that out-of-
state prisoners, for which we have contractual obligations and 
Wisconsin pays the bill, should be counted in the home area 
from which they came, and that is the State of Wisconsin. In 
conjunction, we know that Congressman Ryan has a bill for 
military personnel. We would ask that a similar advice that you 
rendered to the U.S. Census Bureau regarding prisoners be the 
same. We believe that if the State pays the way for them, they 
should be counted toward our role.
    In conclusion, these are the things that we would 
specifically advise for you to take back to the Census Bureau--
count our military in conjunction with an effort already begun 
by Congressman Ryan, count our prisoners and those out of State 
where we pay the bill, give money to supplement the $750,000, 
assuming that the legislature does concur with Governor 
Thompson's request as the legislature appropriated in 1990, and 
we ask that you advise the Census Bureau to talk about another 
matter that was mentioned with the first two speakers. We have 
to provide more trust within the minds of those people for whom 
we want to complete the census forms. That is critical. You 
have already heard about distrust and that translates into a no 
response. We would urge that the Census Bureau find some way to 
help local units of government and States to come up with our 
own response for improving that trust.
    So we are doing a lot, but we have got to do even more if 
we are going to achieve our goal--training, technical 
assistance support, financial support, all designed toward 
achieving the goal of a complete and accurate census for 2000.
    Again, on behalf of Governor Thompson, thank you and thank 
you, Congressman Ryan for bringing this forum to Wisconsin, we 
appreciate that very much.
    Mr. Miller. Thank you. Mr. Kehl.
    Mr. Kehl. Thank you, Mr. Chairman, on behalf of Kenosha, 
where I am the county executive. We very much appreciate your 
time and efforts in coming to fine southeastern Wisconsin's 
heat and humidity this time of year. I cannot guarantee you it 
is any better in December, but thanks for coming.
    Mr. Miller. Would you pull the microphone a little closer, 
please?
    Mr. Kehl. Sure. I have got a low voice anyway.
    I am going to move from my text just a little bit, with 
your permission. What I think is a major issue here is how we 
can best coordinate our efforts at the local level with the 
Census Bureau.
    Kenosha County has moved in this direction. Our land 
information office has been working diligently in more 
accurately computerizing census maps on the county geographic 
information systems. In fact, the GIS is now devoted totally 
toward the census, because we feel it is that important. The 
population is currently around 143,000 and we are experiencing 
a phenomenal growth rate that we do not see lessening any time 
in the near future.
    As a result of that, in response to a border and annexation 
survey recently completed from the census, Kenosha County will 
be sending information showing boundary and annexation changes 
that have occurred since January 1998. This is an ongoing 
project that we will utilize with our local council of 
governments to bring forward the best information that we can, 
because of the importance, obviously, it relates to the 
community and the dollars that can be brought in for our 
operations.
    Census counts are certainly used for reappointment, and an 
accurate and complete count is important to ensure 
representation in Congress. And, I might add we have a great 
guy in Paul, and we thank you for being here and bringing this 
so that at least there will be a local forum and we can address 
those concerns.
    Data from the census is powerful information for planning 
and land use, schools, economic development and more, 
specifically delivery of service.
    So, we do want to be actively involved in the census 
because we feel that is a must.
    Understanding fully well the importance of a complete and 
accurate count, Kenosha County has, as Racine County has, been 
working through our various divisions and departments, and 
using the County's University of Wisconsin's Extension. A 
series of community meetings will be planned, because the more 
information we bring forward and the more people we create the 
interest and understanding of what this is all about, the 
better responses we feel we have.
    Without belaboring, I just do want to say to you that we 
know the importance of this and we are using the full extent of 
our resources to work with the Census Bureau for the accuracy 
of the count.
    And again, we thank you, at least from Kenosha County's 
government, as others have, for your interest in being here and 
realizing you have a tight schedule. I have said all that I 
should say.
    Thank you.
    Mr. Miller. Thank you very much. Dr. Voss.
    [The prepared statement of Mr. Kehl follows:]
    [GRAPHIC] [TIFF OMITTED]61509.010
    
    [GRAPHIC] [TIFF OMITTED]61509.011
    
    Dr. Voss. Thank you very much, Mr. Chairman. I appreciate 
the invitation to be here and to share my comments this morning 
on issues of census accuracy in the upcoming census.
    I am a professor of rural sociology at the University of 
Wisconsin in Madison. I also direct a small unit called the 
Applied Population Laboratory, which has been mentioned this 
morning. It is a part of that Extension partnership in this 
State where a number of parties, within Extension and outside 
of Extension, are working to make the count as good as possible 
in this State.
    I have chosen to focus my comments very narrowly this 
morning. I realize I am sitting between the esteemed members of 
the subcommittee and their lunch, so I am going to try to be 
quite brief and focused.
    I am absolutely convinced that State and local promotional 
activities, the census complete count committees, a strong 
advertising campaign, curriculum materials and the countless 
other innovative census outreach programs initiated by State 
and local census partners do result in a better census. And I 
am very encouraged this morning by some of the testimony that 
we have heard that relate to those local activities.
    For the 1990 census, as you have heard, the State of 
Wisconsin allocated substantial State resources for a 
successful statewide census awareness campaign and a grant 
program for local complete count committees. I am certain the 
effective use of these State resources was an important reason 
why Wisconsin led the Nation in 1990 in the return of mailed 
out census questionnaires. Advertising, promotion, effective 
census outreach, these things do improve census response rates, 
I am absolutely convinced of that.
    Sadly, however, the record shows rather conclusively that 
such efforts do not appear to have much effect on census 
accuracy; that is to say, on coverage and on differential 
coverage. On this matter, I agree with Mrs. Maloney in her 
opening statements this morning. Despite increasing resources 
allocated by the Congress to the census in recent decades and 
despite extraordinary efforts on the part of the Census Bureau 
and its partners to narrow the stubborn, unyielding gap in the 
undercount between the majority white population and race and 
ethnic minority populations, that gap persists.
    The 1990 census was a particular disappointment in this 
regard. While reducing the differential undercount was the No. 
1 goal for 1990, the gap widened. This caused many observers at 
the time to conclude that traditional census taking had pretty 
much already achieved as much as it possibly can in terms of 
improving census accuracy. More money, more advertising, more 
highly visible promotional campaigns, more complete count 
committees, more attention to making census questionnaires user 
friendly, more census assistance centers--none of this appears 
to hold much promise for counting perhaps the last 2 percent of 
the people in this country or for reducing the differential 
undercount below 4 percent.
    As a demographer and as a member of the Commerce 
Department's 2000 Census Advisory Committee, I have followed 
the debate regarding sampling and coverage improvement methods 
for the 2000 census with considerable interest. I, likewise, am 
familiar with the limited ruling of the Supreme Court on 
January 25. And I know it is the Census Bureau's intention to 
release, prior to April 1, 2001, both the field counts from the 
2000 enumeration as well as the corrected counts based on 
census errors revealed by the accuracy and coverage evaluation 
survey, or the ACE survey.
    I believe this to be a correct legal and ethically 
defensible intention. This would seem to me to be our only hope 
for census data users who want census data with the least 
possible error.
    I believe that accuracy in the census is fundamentally a 
matter of fairness and equity for the American people and for 
the places where they live. It would be my strongest hope that 
fairness in the census not become a partisan or a parochial 
issue where elected leaders and others hold positions about 
census errors, depending on whether their State or their city 
gains or loses because of those errors. Errors in the census 
must be a concern to each of us.
    The matter goes beyond which data are used for drawing 
political boundaries or are used in Federal funding 
allocations. Rather, it seems to me, Mr. Chairman, that at its 
foundation, this is about the methods we use to produce a 
portrait of the American people and of the urban neighborhoods 
and the rural villages where they live. It is my opinion that 
none of us should advocate a portrait that knowingly excludes 
some people. None of us should want a portrait that is not as 
absolutely accurate as we are capable of producing or a 
portrait that fails to reflect our fundamental American ideals 
of fairness and equity.
    In summary, Mr. Chairman, I believe local partnership 
efforts are an essential strategy for improving census response 
rates. Regrettably, however, I believe the evidence shows that 
none of these activities can close the overall coverage gap or 
reduce the stubborn problem of differential coverage.
    I thank you, Mr. Chairman. That concludes my formal 
remarks, but I am happy to answer any questions.
    [The prepared statement of Dr. Voss follows:]
    [GRAPHIC] [TIFF OMITTED]61509.012
    
    [GRAPHIC] [TIFF OMITTED]61509.013
    
    [GRAPHIC] [TIFF OMITTED]61509.014
    
    Mr. Miller. Thank you.
    Let me start with Mr. Robinson first. Is the legislature 
still in the process of coming up with the appropriation that 
Governor Thompson requested? Is the budget process still going 
on?
    Mr. Robinson. Yes, it is, Mr. Chairman. That process is 
going on as we speak. I just got an update prior to the 
commencement of the hearing this morning, and I understand that 
at least one of our houses has added, at least for discussion 
as of this time, $100,000 to the Governor's $750,000 request. 
So, we are still very much in the ball game.
    Mr. Miller. And in 1990, money was made available and it 
was made as a grant to local communities; is that the way it 
worked?
    Mr. Robinson. It was a two-pronged process, Mr. Chairman. 
There were moneys for grants and there was also moneys for 
campaign, a public advertising campaign as well.
    Mr. Miller. Well, it obviously helped get the mail response 
rate up.
    Dr. Voss, this is really not a hearing on sampling, but I 
am a little surprised. You say you think sampling is the only 
way to solve the problem. Do you believe that is true at the 
census block level when you get down there? Will you say that, 
yes or no? Do you think adjusted census block numbers are 
better than adjusted numbers? Yes or no?
    Dr. Voss. You want a yes or no answer? No.
    Mr. Miller. So, adjusted numbers are not more accurate at 
census block levels?
    Dr. Voss. I do not think we know the answer to that. I 
think there is evidence that error gets introduced at the block 
level. Just as there is error in the block level in the census 
raw counts. There is error at that very small level of 
geography and it is not solved by something like the ACE 
survey.
    Mr. Miller. OK. When you get into redistricting and, you 
know, you must work with block data, I mean you are working 
with very small numbers, relatively small numbers.
    Dr. Voss. Oh, absolutely.
    Mr. Miller. And as you start adjusting that, the error 
becomes magnified.
    Dr. Voss. Not necessarily. There are enormous offsetting 
errors, you see, that take place. As you aggregate up, there is 
no question in my mind that at a congressional district level, 
the corrected numbers are better than the uncorrected numbers, 
at a city level and even at a neighborhood level, I am 
convinced----
    Mr. Miller. Are you familiar with the adjustment that was 
attempted in 1990?
    Dr. Voss. Oh, absolutely.
    Mr. Miller. And do you feel that the adjusted numbers would 
have been better than the unadjusted numbers?
    Dr. Voss. At what level of geography?
    Mr. Miller. At any level?
    Dr. Voss. Oh, yes, absolutely.
    Mr. Miller. Wisconsin would have lost a congressional seat 
if they used adjusted numbers, did you know that? And 
Pennsylvania.
    Dr. Voss. Oh, that is a different question. I understand 
that question too; but yes, for every State, I believe the 
count would have been closer to the true number of people in 
that State.
    Mr. Miller. How about the census block data in 1990, 
adjusted?
    Dr. Voss. No, I cannot say that a given block would be more 
accurate or less accurate.
    Mr. Miller. I will tell you, I believe it is less accurate. 
That is the problem you have when you start working with block 
data. As you know, you may only have 20, 30, 40, 50 people in a 
block and----
    Dr. Voss. May I followup, Mr. Chairman?
    Mr. Miller. Pardon?
    Dr. Voss. May I followup on that?
    Mr. Miller. Yes.
    Dr. Voss. I agree with you, I mean I completely agree with 
you on that point. But blocks are used as building blocks, as 
aggregate, they aggregate up to neighborhoods, they aggregate 
up to villages and towns and cities; so that I think that at 
the block level, we should not wring our hands over the very, 
very small errors that occur, but worry about the aggregation 
that happens at a much higher level.
    Mr. Miller. We can assume away errors and that is nice to 
have that ability to assume. But the bottom line is, anyone 
that draws lines, and when the State legislature does that, 
they work with block data. And when you start creating the 
errors I do not totally buy that particular argument that they 
will average out in the end.
    Let me go back, Mr. Kehl, in your community, do you have 
somebody designated to be responsible for the census yet?
    Mr. Kehl. Yes.
    Mr. Miller. How much of this person's time will be devoted 
to census matters?
    Mr. Kehl. As much time as necessary. He works directly out 
of our office.
    Mr. Miller. And you have one full-time person at the State 
level right now, is that right?
    Mr. Kehl. Yes.
    Mr. Miller. And they will work together. Is there any 
organizational meeting where your person is meeting with the 
people in other communities in the State?
    Mr. Kehl. We do a quarterly meeting as it relates to local 
government bringing together issues, and the census is one of 
those. So we will be meeting again in July and we are at 
Madison quite a bit, which is our State capitol unfortunately 
for a lot of other reasons, but we live there.
    Mr. Miller. Who do you think is going to be the hardest to 
count population segment?
    Mr. Kehl. I am concerned--as was mentioned, the minority, 
certainly, but when we look at being as divested as we are, I 
become a little concerned about our rural areas and that is why 
we are coordinating with local governments to make sure there 
is an accuracy there, sir.
    Mr. Miller. You say the rural areas?
    Mr. Kehl. Uh-huh, yes.
    Mr. Miller. Why?
    Mr. Kehl. Well, because of it being so spread out and so 
diversified, and I think as we bring our council of local 
governments together and meet on these issues, the accuracy 
will come from that, and that is the role that county 
government should play in coordinating those.
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. Thank you. I thank everyone for their 
testimony. It is wonderful, Mr. Robinson, to hear the efforts 
of your State, to share financially and otherwise in striving 
for an accurate count. And I appreciate very much your 
comments, Mr. Voss, and I would like unanimous consent to put 
in the record an editorial from the Racine Journal Times that 
ran December 2, 1998, which really mirrored many of the 
statements of Dr. Voss. May I put that in the record, Mr. Voss?
    Mr. Miller. Without objection.
    Mrs. Maloney. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]61509.015
    
    Mrs. Maloney. Mr. Voss, my understanding of Milwaukee's 
experience in 1990 is that there were great efforts in time and 
cost by local governments to increase the mail rate return. 
However, the undercount in Milwaukee was well above the 
national average and nearly four times the undercount in the 
State. Does this suggest that the Milwaukee example is useful 
for increasing the mail return rate but not for reducing the 
undercount?
    Dr. Voss. The figure you gave, I will have to accept; I 
cannot verify those. I think that it does. I think that 
Wisconsin did not have a complete count in 1990, even though 
our response rate was highest in the Nation. And I think the 
sort of disconnect between achieving a high response rate and 
achieving a complete and accurate count, those two things are 
very different.
    Mrs. Maloney. Will more promotion and outreach reduce the 
differential undercount?
    Dr. Voss. No. That was essentially the gist of my 
testimony, that it will not.
    Mrs. Maloney. So it did not work in 1990 and it is not 
going to work now. There would be an undercount unless it is 
corrected?
    Dr. Voss. I think all of the evidence points to a yes 
answer to that question.
    Mrs. Maloney. Some people believe that correcting the 
undercounts with modern scientific methods would boost the 
population figures in other States more than in Wisconsin and 
could cost the State a seat in the U.S. House of 
Representatives. I have reviewed a number of reports, including 
one that was written by the Congressional Research Service, 
which indicates that Wisconsin will lose a seat in 2000 
regardless of whether or not modern scientific methods are 
used. Do you think the use of modern science will affect the 
number of congressional seats held by Wisconsin?
    Dr. Voss. I am sitting here with people who may have a very 
different opinion on that and I should guard my comments. It is 
my belief that the ninth seat has disappeared. And what I mean 
by that is, as the population shifts have taken place over the 
course of this decade, that if you were to have redistricted 
say in 1998 or this year in 1999, if the Census Bureau's 
estimates are even close to being accurate, regrettably for all 
of us, I think the ninth seat is gone. Now this pertains to the 
Supreme Court decision--your question relates to would adjusted 
or unadjusted numbers affect our count and that is no longer an 
issue because of the court's ruling. But I do not think it will 
come into play at all.
    Mrs. Maloney. Will it affect the State legislatures?
    Dr. Voss. The use of adjusted numbers rather than 
unadjusted numbers?
    Mrs. Maloney. Uh-huh.
    Dr. Voss. The ``A'' word is frequently frowned upon. Yes, I 
think that it could, but in very small ways, not in dramatic 
ways, but in small ways.
    Mrs. Maloney. Some people suggest that modern scientific 
methods will add errors into the census--we just heard those 
comments--regardless of whether or not modern scientific 
methods are used. But isn't the base line census erroneous?
    Dr. Voss. Well, of course it is, and all the coverage 
improvement evaluations that have been made since 1940 show 
that. So, the census is in error. The ACE survey will not 
correct appropriately all of those errors, but it will bring us 
closer to a true count of the population in all larger areas 
and cities and counties, and for the United States.
    Mrs. Maloney. You are unique in that you have had extensive 
experience in studying rural areas. Could you expand a bit on 
why it is so difficult to achieve an accurate census count in 
America's rural and small town communities? And do you think 
the expanded outreach and promotion efforts planned for 2000 
will address the disproportionately high undercount in poor 
rural areas?
    Dr. Voss. Well, one would certainly hope that it will. I 
hope that our outreach efforts are not based solely on our 
cities. In addition to the undercount being related to race and 
ethnicity, it also is highly related to poverty and it is 
widely known that rural America has large pockets of rural 
poverty and that the poverty is fairly widespread in rural 
areas. So, there is a problem of undercount in rural areas and 
I would hope that our statewide promotional campaigns here in 
this State and in other States address that.
    Mrs. Maloney. Can I ask one more question that is totally 
about Wisconsin? I know my time is up.
    We hear and we talked about extensively today about how 
Wisconsin's low undercount rate of 0.6 percent was due to the 
outreach and promotion, the State funds, the whole effort by 
the State. Can you explain why Ohio, which did not have 
extensive outreach and promotion, as your State did, also had 
an undercount rate of 0.6 percent?
    Dr. Voss. Is that question addressed to me?
    Mrs. Maloney. Yes, uh-huh.
    Dr. Voss. No, I cannot.
    Mrs. Maloney. I was looking at the numbers last night and I 
said hey, they had the same amount and they did not do all the 
things that you had done in the legislature. Thank you, very 
much.
    Mr. Miller. Mr. Ryan.
    Mr. Ryan. Thank you. Just for the folks in the audience, I 
would like to step back and talk about the sampling adjustment 
and how it works with the higher aggregation levels. I think it 
is safe to say that the higher the aggregation, the more 
accurate the adjustment may be; but when you get down to the 
lower aggregate levels, experts have agreed that adjustment is 
much less accurate for towns and cities and areas with 
populations below 150,000. It is important to note that almost 
every town in Wisconsin has a population below 150,000. There 
is not one town in the First Congressional District that 
exceeds population of 150,000. We just have a handful of cities 
that are actually that large.
    So this adjustment question, as it relates to Wisconsin, 
suggests that according to expert witnesses and reports, that 
it is less accurate at those levels below 150,000.
    But I wanted to go back to the block data. Allan Kehl, 
county executive, I wanted to ask you how important is the 
block data in what you do and in your estimates and in your 
population counting and then, how does it affect your job and 
the services you deliver? And also, Mr. Robinson, I wanted to 
ask you how the block data affects us to be doing redistricting 
for the assembly seats. Senator Moore on earlier testimony said 
it takes about 15,000 votes to swing an election in the State 
assembly, and we just elected the first Hispanic to the State 
assembly very recently. And with a 15,000 vote swing, isn't 
that accuracy at the block level in those historically 
undercounted areas so important?
    I will go to Mr. Kehl first.
    Mr. Kehl. Thank you, Mr. Congressman. Extremely. When you 
look at planning and you look at land use and you look at 
development, where should it start--certainly in the block 
concept. It gives us an overall perspective and we build from 
there. To me, that is the most important. And especially in the 
rural setting, which, as you look at Wisconsin, even in 
southeastern Wisconsin, with the phenomenal growth rate we are 
experiencing, we are still rural. And as a result, if you take 
that concept, when you get to the lower level, we see great 
success and more accuracy. That is my opinion, sir.
    Mr. Ryan. Mr. Robinson.
    Mr. Robinson. I, too, agree. I believe that the count 
should be a verification at the lowest level possible, the most 
manageable level, and that is block. And you should build from 
there. Absolutely, I agree with the county executive.
    Mr. Ryan. Do you think that getting the most accurate count 
at the local level down to the block level is our best chance 
of getting a better count for those historically undercounted 
areas so we can get that minority representation into the 
minority neighborhoods that are actually undercounted?
    Mr. Robinson. Absolutely. And I was very struck by the 
testimony of Representative Ladwig, in terms of you have got to 
go door to door, house to house, face to face. Those 
activities, coupled with doing it at that very basic level, are 
absolutely critical if we are ever going to achieve that 
accurate and complete count that we constantly talk about--
absolutely.
    Mr. Ryan. Dr. Voss, I would like to ask you briefly. Do you 
agree with statements by other experts that when you get the 
aggregation down to the lower level, the block level, towns 
below 150,000, that it is less accurate, and also do you think 
that post-census local review--I notice in your testimony, you 
advocated several of the things that we are trying to do to 
promote the census, promote the enumeration--do you think that 
post-census local review, in addition to these efforts, is 
something that will help us get a better number?
    Dr. Voss. Well, there are two questions there. I think you 
know my answer to the first one. I am not so worried about the 
very, very small and I will say close to trivial errors that 
occur at the block level. It is when you have populations in 
neighborhoods that are counted by 5 percent that it seems to me 
that all of us ought to start getting concerned and figure out 
ways of correcting for that. The block numbers will have error; 
some will be incorrectly increased and some will be incorrectly 
decreased. But you lose a lot of that inaccuracy as you 
aggregate up and it is at aggregations, it is at neighborhoods, 
it is for communities, it is for villages, it is for towns, 
that those data become important. So, I guess I disagree with 
the two gentlemen to my left on that.
    With respect to post-census local review, I am really 
pained in trying to come up with an answer on that one. I 
understand the 1990 program and how it worked extraordinarily 
well, and the disappointments that existed here in Wisconsin 
when that program was concluded. We, in the unit that I said 
that I was involved with and Nat Robinson's unit in State 
government, jointly, we put on over 40 workshops trying to 
educate our local communities on the ground rules for 
challenging their numbers in post-census local review and how 
to go about that in the very brief time that they had.
    For the most part, I think local review was deemed as a big 
disappointment. I do not remember the exact percentage, I think 
it was 18 or 19 percent of eligible communities took part in 
post-census local review; well over 80 percent did not, despite 
this effort to get involvement.
    I think, just very briefly, I can say it very quickly, the 
program sounds wonderful and to ask a mayor, would you not like 
to see your numbers before they are certified as final--you are 
not going to get a no answer to that. But for the Census 
Bureau, and I think for your subcommittee, there are some real 
issues that have to be addressed. The Census Bureau, for one, 
is on a very, very tight time schedule to get the certified 
counts out by December 31 so that if the subcommittee, through 
legislation, is successful in requiring a post-census review, 
you are going to have to work with the Census Bureau to figure 
out where the time and the money is going to come from to fit 
that into this very tight time schedule. That is why the Census 
Bureau decided to try this time around to front end load that 
process, to put in the local review of census addresses and 
block counts before the count, rather than after the count, to 
give more time, in fact, to that process.
    Three, I will say that throughout the country, I think 
post-census local review was not a terribly effective program. 
It did not find all that many housing units or people, but it 
did correct geographic misallocation, which is certainly 
important.
    I think the Census Bureau's largest fear for post-census 
local review is that the overwhelming majority of communities, 
the 39,000 or so general purpose governmental units, the 
majority of those that have chosen not to participate in LUCA, 
for whatever reasons, but who are not participating in this 
program, this front-loaded program, will, in a post-census 
local review, weigh in and they will be doing it for the first 
time and they will not have understood the sort of rules that 
surround how one goes about comparing the Census Bureau's 
addresses and your local addresses, and the Census Bureau will 
be overwhelmed in terms of the requirement to respond back to 
those communities.
    I much favor the front-end loading, it seems to me that it 
makes sense, but I know that LUCA is not working as 
successfully as the Bureau was hoping.
    Mr. Ryan. Yes, that is a very interesting point. And I 
think those of us on the committee who support front and back 
end, you know, LUCA and post-census local review, as the best 
way of doing it, that is a very compelling point, that there 
are 39,000 communities who, by their own choice, because it is 
a voluntary program, did not participate in the LUCA program. I 
guess where we may disagree is that I do not necessarily see if 
those 39,000 communities have a chance of participating in 
post-census local review as really a problem, but as an 
opportunity to get a chance at going in and really getting the 
accurate count. Does it mean more work for the Census Bureau? 
Of course, it does.
    Dr. Voss. Sure.
    Mr. Ryan. Does it help us get to the accuracy of counting 
those neighborhoods, of counting the geography so those 
neighborhoods, those historically undercounted neighborhoods, 
actually have the kind of representation that they deserve? 
Absolutely.
    Dr. Voss. Yeah.
    Mr. Ryan. Congressman Tom Barrett and I are planning on 
doing some bipartisan promotion of the census around 
southeastern Wisconsin in these areas that are historically 
undercounted. We are hoping that we can get post-census local 
review in here so we can get to those neighborhoods that are 
historically undercounted.
    One more point I just wanted to add before closing, I see 
my time has expired, is that in Wisconsin, when we are talking 
about reaching this threshold where aggregation of statistical 
adjustment is preferred or better, that threshold is at that 
150,000 town population level and that puts just about every 
single town and city in this State out of the threshold.
    So, I just wanted to thank each of you for coming and 
participating. Did you want to add something there, Nathaniel?
    Mr. Robinson. If I may, Mr. Chairman, I want to comment on 
the pre- and post-review of census data. One of the things that 
we learned in the updated lists, we sent a confirming letter to 
city clerks, all of them, stating the importance of their money 
being tied to this base. A lot of them are busy. They do not 
really realize for the next 10 years, that it is the base not 
only for Federal money, but local revenue sharing is also going 
to be tied to that. It does make a difference. What is my 
point? It may be in the message, Paul. Paul and I are good 
partners. We can disagree agreeably even in a public forum and 
still be friends and go out and have a beer. I think it is in 
the message in terms of letting them know the impact for the 
next 10 years, their estimates from 2001 on to the next census 
is going to be based on that. So, if you hit home where it 
really counts, it does make a difference in their grasping the 
importance of it. So I think it is critical to keep both. And 
the way we sell that in terms of the money impact is the way to 
go.
    Mr. Ryan. Very good point.
    Mr. Kehl.
    Mr. Kehl. Is there something wrong with a check and balance 
on the post-census? Is there something wrong with 
accountability? What am I missing here? I think this is what 
this is supposed to be about.
    You know what happened 10 years ago? I guess I was not in 
the picture. I am very concerned about that as we represent our 
communities. And although what the good doctor has stated may 
have been in the past, believe me, there are government 
officials today at your level, certainly down to ours, who are 
very concerned about this. I believe in post-census, I believe 
in the block counts because again, as you represented 
Congressman Ryan, we do not have a community here that is above 
150,000 folks. And this is very important to us. And this is 
pretty much mainstream Nation here. It does not get any more 
Midwest. Thank you.
    Mr. Ryan. Thank you.
    Mr. Miller. Mr. Petri.
    Mr. Petri. Thank you. Just maybe to wrap this up, in 
painting a little bit of a black and white picture when it is 
really probably not that way, we certainly want to use modern 
telecommunications, printing, tabulation, every other sort of 
modern thing we have learned to do a better and better census, 
including statistical adjustment or identification technology 
to identify where there may be an undercount. Where the 
difference here exists is whether that should trigger then an 
extra effort to reach out and count, or whether we should just 
go ahead and adjust the numbers and not be able to actually 
subject those adjusted numbers to the discipline of an actual 
head count check, which is the checks and balances that was 
just referred to. That is purely a matter of trust and of 
accuracy and whether we want to turn this over to a group of 
people who are going to flip numbers to this block and that 
block and suddenly, they are set in stone.
    But, any of you care to comment on whether as a country, 
you think we are doing a better or worse job than we did in 
1800 or 1900? Do you think when we had the Pony Express or 
before we had radio and television and advertising, when we had 
a higher percentage of immigrant populations, people unable to 
get out, no roads and cars, we were doing a better job than we 
are doing today, or do you think we are holding up for perfect, 
when in fact, we are much better than we have ever been before?
    Mr. Kehl. I guess as we have grown, not everybody knows 
everybody in the community. That was the case maybe 30 years 
ago. I hope every 10 years we get better, but please understand 
our counties or cities are living on nickels and dimes as it 
relates to the census. These are very important issues to us as 
far as programming is concerned, as far as operations are 
concerned, and our very existence. You are going to see 
communities dying on the vine unless there is some degree of 
accuracy. We always think you get the message out. We like to 
believe we get the message out. I can tell you from the local 
level when we think we do, you can rest assured we have not. 
And, that concerns us. If I can find a better way, other than 
knocking on doors, if we have to rely on the mass media, fine.
    Thank you, sir.
    Mr. Robinson. Well, history has showed us that Americans 
have always had a healthy skepticism; that is why we have 
checks and balances in our three branches of government. But I 
think that America is much more skeptical now. We have to craft 
a message where each individual not only should exercise that 
personal responsibility but a message that shows how the 
census-taking process relates to that individual, to make it 
more personalized. And once we do that, I believe that will 
make a difference in terms of not only our overall quality as 
defined by accuracy, as well as completeness, but it will make 
the process a whole lot easier.
    Mr. Miller. Well, let me thank the three of you for being 
here today and testifying. We very much appreciate it. I think 
it has been a good hearing and I appreciate the citizens of 
Racine to make available their facilities today. It is a 
pleasure to be in southern Wisconsin.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record.
    Without objection, so ordered.
    In case there are additional questions that Members may 
have for our witnesses, I also ask unanimous consent for the 
record to remain open for 2 weeks for Members to submit 
questions for the record and that the witnesses submit written 
answers as soon as practicable.
    Without objection, so ordered.
    Thank you once again, and we stand adjourned.
    [Whereupon, at 12:43 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
